App.la

ORDER OF THE VERMONT SUPREME COURT
(MARCH 5, 2021)
VERMONT SUPREME COURT

JENNIFER DASLER,
v.
TIMOTHY DASLER,
Appellant.
Docket No. 2020-146
Appealed from: Superior Court,
Windsor Unit, Family Division
Docket No 74-6-17 Oedm
Trial Judge: Michael J. Harris
Before: Beth ROBINSON, Associate Justice.
Harold E. EATON, JR., Associate Justice.,
Karen R. CARROLL, Associate Justice.
In the above-entitled cause, the Clerk will enter:
Husband appeals the family court’s denial of his
Rule 60(b) motion to set aside the final divorce order
in this case. We affirm.
The parties were married for five years and have
one minor child. They separated in May 2017 following
several incidents that led wife to obtain a relief-fromabuse order against husband and resulted in husband
being charged with domestic assault. The family

App.2a

division entered a final divorce order in August 2018
in which it awarded wife primary legal and physical
parental rights and responsibilities, established a
fifty-fifty parent-chil’d contact schedule, and ordered
wife to pay $300 in monthly maintenance to husband
for two years. Husband appealed that decision to this
Court, and we affirmed in June 2019. Dasler v. Dasler,
No. 2018-301, 2019 WL 2359608 (Vt. June 3, 2019),
cert denied, 140 S. Ct. 673 (2019).
In January 2020, husband filed a motion seeking
to vacate the divorce order pursuant to Vermont
Rule of Civil Procedure 60(b). He argued that wife
had perpetrated a fraud upon the court by exaggerating
and misrepresenting the facts of the incidents that
led to the relief-from-abuse order and his assault
charge, causing the court to give temporary custody
of the parties’ child to wife and resulting in her ulti­
mately being granted primary custody. He claimed
that his pending criminal charge prevented him from
presenting evidence during the divorce proceeding
that would contradict her allegations of abuse. He
argued that becausfe he had recently resolved his
criminal case by pleading no contest to a charge of
disturbing the peace, he could now provide evidence
that he was unable to present during the divorce
hearing, which would show that wife’s accusations of
assault and abuse were unfounded. He sought to
introduce evidence of prior “bad acts” by wife. Husband
further argued that he could provide evidence that
would disprove the accusations wife made in connection
with her July 2017 motion to suspend visitation and
other motions she filed during the divorce proceeding.
The family court denied husband’s motion. The
court concluded that because the motion was based

App.3a

on fraud or other misconduct by an adverse party as
well as evidence that husband had not previously
presented to the court, it was untimely, because it
was made more than a year after the final divorce
order was entered. The court held that husband’s
appeal of the divorce order did not toll the running of
the Rule 60 limitation period because the appeal did
not make substantive changes to the order by remand.
The court further concluded that the fraud claimed
by husband did not amount to a fraud upon the court
justifying relief outside the one-year time limit. Hus­
band moved for reconsideration. While that motion
was pending, husband filed this appeal. The court
subsequently denied.the motion for reconsideration.
On appeal, husband argues that the court should
have granted his motion to set aside the divorce
order because wife’s alleged misconduct constituted a
fraud upon the court. Alternatively, he claims that
he was entitled to relief under Rule 60(b)(4) because
the judgment was void. He also argues that the court
should not have referred the motion to the judge who
presided over the divorce proceeding because that
judge was biased against him.
Under Rule 60(b), the court may, upon motion,
relieve a party from a final order for six .enumerated
reasons: (l) mistake, inadvertence, surprise or excusable neglect; (2) newly discovered evidence which could
not have been discovered in time to move for a new
trial; (3) fraud, misrepresentation, or other misconduct
of an adverse party; (4) the judgment is void; (5) the
judgment has been satisfied, released, or otherwise
rendered unenforceable; or (6) “any other reason justi­
fying relief from operation of the judgment.” V.R.C.P.
60(b); see V.R.F.P. 4.0(a)(2) (listing rules of civil pro-

App,4a

cedure that are applicable to divorce proceedings in
family court). A Rule 60(b) motion based on reasons
(l), (2), and (3) must be filed “not more than one year
after the judgment, order, or proceeding was entered
or taken.” V.R.C.P. 60(b). “A motion for relief from
judgment under V.R.C.P. 60 is addressed to the discre­
tion of the trial court, and is not subject to appellate
review unless it clearly and affirmatively appears
from the record that such discretion was withheld or
otherwise abused.” Waitt v. Waitt, 137 Vt. 374, 375
(1979) (per curiam).
Husband’s motion was based on allegations of
fraud or misconduct by wife in the divorce proceeding
as well as evidence that he did not present at the
divorce hearing. The family court therefore properly
determined that it was barred by the one-year time
limit set forth in Rule 60(b) for motions based on
reasons (l)-(3). See Olio v. Olio, 2012 VT 44, % 16,
192 Vt. 41 (affirming family court’s denial of wife’s
motion to set aside divorce judgment based on
husband’s misrepresentations about his assets because
motion was filed more than one year after judgment);
Brown v. Tatro, 136 Vt. 409, 411 (1978) (explaining
that “[t]he one year bar is an absolute one where it
applies”). The court' also appropriately declined to
grant relief under Rule 60(b)(6) because that rule
only permits relief “when a ground justifying relief is
not encompassed within any of the first five classes
of the rule.” Alexander v. Dupuis, 140 Vt. 122, 124
(1981); see Pierce v. Vaughan, 2012 VT 5, f 10, 191
Vt. 607 (mem.) (“If clause (6) were permitted to
encompass grounds for relief that fall under clause
(1), (2), or (3), then it would supply a backdoor to

App.5a

circumvent the one-year time limit.”). Husband does
not challenge these conclusions on appeal.
Rather, husband argues that wife’s alleged mis­
representations constituted a “fraud upon the court”
that would permit the court to grant relief outside
the one-year time limit. See Rule 60(b) (stating that
rule does not limit power of court to set aside judg­
ment for fraud upon the court). A finding of fraud
upon the court is “reserved for only the most egre­
gious misconduct evidencing... an unconscionable and
calculated design to improperly influence the court,”
and “must be supported by clear, unequivocal and
convincing evidence.” Godin v. Godin, 168 Vt. 514,
519 (1998) (quotation omitted). We have emphasized
that “the fraud-on-the-court doctrine must be narrowly
applied, or it would become indistinguishable from
ordinary fraud, and undermine the important policy
favoring finality of judgment 3.” Id. at 518. In Godin,
we concluded that wife’s failure to tell her husband
over several years and durin j the divorce proceeding
that the child he had raised as his own was not his
biological child, “did not ipproach the kind of
calculated, egregious ‘defili ig’ of the adjudicative
process that has traditionally characterized fraud on
the court.” Id. at 520. Sunils rly, in Olio v. Olio, we
held that a husband’s delibei ate effort to hide assets
from wife and the court during the divorce proceed­
ing “falls on the ‘ordinary fra id’ side of the boundary
and does not qualify for th ; narrow exception we
recognized in Godin.” Olio, 5 012 VT 44, f 20. As in
Godin and Olio, husband’s a legations that wife lied
about or exaggerated abuse bj husband in an attempt
to influence the custody proc ceding does not amount
to the type of fraud that atte npts to “defile the court

• ;r

App.6a

itself/’ Godin, 168 Vt. at 519. Rather, wife’s alleged
misconduct falls squarely within the category of mis­
representation by a party, and as the trial court
found, is therefore time-barred.
Husband argues in the alternative that the
court should have set aside the divorce order because
it is void. See V.R.C.P. 60(b)(4). He claims that he
was forced to choose between defending himself against
wife’s allegations in the divorce proceeding or retaining
his right to remain silent in the criminal proceeding,
which deprived him of a full and fair opportunity to
be heard, thereby rendering the judgment void. “[A]
judgment is void only if the court that rendered it
lacked jurisdiction of the subject matter, or of the
parties, or if it acted in a manner inconsistent with
due process of law.” In re C.L.S., 2020 VT 1, H 17
(quotation omitted). Husband does not allege that the
court lacked jurisdiction over the divorce proceeding or
the parties, and the record does not support his claim
that the court acted inconsistently with due process.
“[T]he fundamental requirement of due process is the
opportunity to be heard at a meaningful time and in
a meaningful manner.” Brock v. Roadway Express,
Inc., 481 U.S. 252, 261 (1987) (quotation omitted).
Husband was provid ed notice of the various hearings
in the divorce.proceeding, and he appeared and parti­
cipated with the assistance of counsel. As husband
admits in his brief, he could have requested a delay
in the family proceeding while he resolved his criminal
case or sought immunity to prevent the State from
using his testimony in the family proceeding against
him in the. criminal case. See Groves v. Green, 2016
VT 106, ^[1[ 26-27,.203 Vt. 168 (explaining that court
could use procedures outlined in State v. Begins,

. App.7a

147 Vt. 295 (1986), where parent’s right against self­
incrimination in criminal case is in tension with
right to present evidence in custody proceeding). He
did neither because he believed a delay would benefit
wife. He has therefore failed to show that the court
acted in a manner inconsistent with due process such
that the divorce judgment is void.
Husband also appears to argue that 15 V.S.A.
§ 665 violates due process because it authorizes the
court to make, findings regarding parental abuse, and
to issue custody decisions, based on a preponderance
of the evidence. “To properly preserve an issue for
appeal a party must present the issue with specificity
and clarity in a manner which gives the trial court a
fair opportunity to rule on it.” State v. Ben-Mont Corp.,
163 Vt. 53, 61 (1994). Because husband failed to
properly preserve this argument by raising it below,
this Court will not address it for the first time on
appeal. Bull v. Pinkham Eng’gAssocs. Ina, 170 Vt. 450,
459 (2000).
Finally, husband argues that it was error for the
family court to refer his Rule 60 motion to the judge
who heard the divorce proceeding over husband’s
objection, because the judge was plainly biased against
him. Husband did not move for recusal of the judge,
and he has not demonstrated that the judge was
biased or prejudiced against him. See State v. Davis,
165 Vt. 240, 249 (1996) (explaining that judge’s
participation in earlier proceedings regarding same
case does not ordinarily justify recusal; “[w]e presume
the integrity and honesty of judges, and the moving
party has the burden to show otherwise”). The judge’s
statement that husband’s appeals to this Court and
the U.S. Supreme Court as well as an action he filed

App.8a

in New Hampshire “indicate the lengths [husband]
may pursue to avoid the finality of the 2018 final
order” does not create a reasonable ground to question
the impartiality of the court. We disagree with
husband’s contention that recusal is required whenever
a party complains about a judge. See Ball v. Melsur
Corp., 161 Vt. 35, 39 (1993) (“We decline to hold that
a per se lack of impartiality, mandating recusal, arises
whenever a judge is the subject of a judicial conduct
complaint by an attorney.”), overruled on other
grounds by Demag v. Better Power Equip., Inc., 2014
VT 78, 197 Vt. 176.. We therefore see no reason to
disturb the decision below.
Affirmed.

BY THE COURT:

Isl Beth Robinson
Associate Justice
/s/ Harold E. Eaton. Jr
Associate Justice
Isl Karen R. Carroll
Associate Justice

App.9a
ORDER OF THE VERMONT SUPERIOR COURT,
ORANGE UNIT FAMILY DIVISION
(JANUARY 23, 2020)
STATE OF VERMONT SUPERIOR COURT
ORANGE UNIT FAMILY DIVISION
JENNIFER DASLER,
Plaintiff,
v.
TIMOTHY DASLER,
Defendant.
Docket No. 74-6-17 Oedm
Entry Regarding Motion
Count 1, Dasler vs. Dasler (74-6-17 Oedm)
Count 2, Dasler vs. Dasler (74-6-17 Oedm)
Title: Motion for Relief from Judgements (Motion 29)
Filer: Timothy Dasler
Attorney:
Filed Date: January 23, 2020
Response filed on 1/29/2020 by Attorney John B.
Loftus for Plaintiff Jennifer Dasler Reply filed on
2/10/2020 by Timothy Dasler
Title: Motion for Various, Relief and Request for
Hearing (Motion 30)

App.lOa

Filer: Timothy Dasler
Attorney:
Filed Date: January 23, 2020
Response filed on 01/29/2020 by Attorney John
B. Loftus for Plaintiff Jennifer Dasler Reply filed on
2/10/2020 by Timothy Dasler
The above two motions have been referred to the
undersigned for consideration and decision. The motions
and memos of the parties have been reviewed. The
motions are denied.
The 1/23/20 motions seek relief from the final
divorce order proceedings, which resulted in an 8/17/18
33-page Final Divorce Order, which, was upheld after
appeal to the Vermont Supreme Court on 6/3/19 and
remanded to the trial after denied motions to reargue
on 7/9/19. And
In essence the current motions seek reopening or
relief of the final order based on claimed information
that relates to credibility determinations the court
already made in the hearings; inadmissible “prior
bad acts” evidence; reasonably available and known
evidence at the time of the hearing not introduced
due to mistake, inadvertence, surprise, excusable
neglect, or now regretted tactical decisions; evidence
which is claimed to be “new” but could have been dis­
covered with due diligence before the final hearing or
in time to move for a new trial; and/or claimed
misconduct or fraud of an adverse party.
The Vermont Rules of Civil Procedure, Rule 60(b)
applies to the motions.1 It provides that a party may
seek relief “from a final judgment, order, or proceed1 See Vt. Rule Fam. Proceedings, Rule 4.0(a)(2).

App.lla

ing” for reasons of mistake, inadvertence, surprise, or
excusable neglect; newly discovered evidence which
by due diligence, could not have been discovered in
time to move for a new trial under Rule 59(b); or
fraud (whether heretofore denominated intrinsic or
extrinsic), misrepresentation, or other misconduct of
an adverse party, subject to a time limit. Motions
based on the just stated grounds must be filed “not
more than one year after the judgment, order, or pro­
ceeding was entered or taken.” V.R.C.P. 60(b). (Fail­
ure to submit evidence due to what is viewed as an
ill-advised tactical decision in retrospect, is not a
valid ground for Rule 60(b) relief at all. Okemo
Mountain Inc. v Okemo Trailside Condominiums, Inc.,
139 Vt. 433 (1981))
These motions were filed well over one year after
the trial court’s August 2018 final order, but within a
year of the Vermont Supreme Court decision affirming
the trial court decision.
Does the Rule 60(b) one year time period run
from the trial court’s otherwise final opinion, or from
the appellate final Opinion? The court Concludes the
trial court order date controls where, like here, the
decisions is affirmed with no material changes or any
remands for further trial court action.
The Federal Rules of Civil Procedure contain a
Rule 60, which in material respects is the same as
Vermont Rule 60(b). The current federal Rule 60(b)
also allows a party to seek relief “from a final judg­
ment, order, or proceeding”. It also contains a motion
filing deadline, for the forms of relief described above,
and requires the Rule 60(b) motion be filed “no more
than a year after the entry of the judgment or order
or the date of the proceeding.” F.R.C.P. 60(b) and (c)(l).

App.l2a

Caselaw under the nearly identically worded
federal rule has concluded that where (like here) the
appeal does not make substantive changes to the
order in issue (by remand)—the federal Rule 60(c) one
year time period is not extended during the pendency
of an appeal. 11 Charles Alan Wright, Arthur R. Miller
& Mary kay Kane, Federal Practice and Procedure:
Civil 2d § 2866 (1995) (citing cases); Vaughan v.
Petroleum Conversion Corp., 120 F. Supp. 175, 178
(D.Conn. 1953); Rhodes v. Huston, 258 F. Supp. 546,
560 (D. Neb. 1966) (determining Rule 60 one year
motion filing deadline form the date of the trial court
judgment and not unsuccessful appeals to the 8th
Circuit Court of Appeals or an “equally fruitless
effort to obtain review from the Supreme Court of the
United States under a writ of certiorari”); Nevitt v.
US., 886 F.2d 1187, 1187-88 (9th Cir. 1989) (Rule 60
one year filing period calculated from grant of 9/10/85
order granting summary judgment, not the later
order dismissing an appeal); In re Reilly; 262 B.R.
197, 203 (Bankry. D. Conn. 2001) (Rule 60 motion
filing deadline calculated from the bankruptcy court’s
claim disallowance, not the dates of the subsequent
appeals to the Bankruptcy Appellate Panel or the
Second Circuit Court of Appeals); King v. First
American InvestigationsInc., 287 F.3d 91, 94 (2nd
Cir. 2002). Accord, Federal Land Bank ofSt. Louis v.
Cupples Bros., 889 F.2d 764, 766-67 (8th Cir. 1989);
Hancock Indus, v. Schaeffer, 811 F.2d 225, 239 (3d Cir.
1987); Carr v. District of Columbia, 543 F.2d 917, 52526 (D.C. Cir. 1976): Transit Casually Co. v. Security
Trust Co., 441 F.2d 788, 791 (5th Cir. 1971); Jones v.
Capital Cities/ABC Inc., 168 F.R.D. 477, 479 n. 3
(S.D.N.Y. 1996). See also 7 J. Moore & J. Lucas,
Moore's Federal Practice ^ 60.28 [2], at 60-316 n. 20

App.l3a

(2d ed. 1987) (to allow an appeal to toll the one-year
limit would “unduly impair the finality of judgments’’
for “[alppellate proceedings may take months and
even years to complete”). This later observation is a
cogent policy reason for Vermont Rule 60(b) to also
be so interpreted. The unsuccessful Vermont Supreme
Court and U.S. Supreme Court appeals, and the
ancillary New Hampshire court action pursued by
Mr. Dasler indicate the lengths Mr. Dasler may pursue
to avoid the finality of the 2018 final order.
The court thin denies these motions as being
untimely. The court also recognizes that V.R.C.P.
60(b)(6) allows for motions for “any other justifying
relief from operation of the judgment” that is not sub­
ject to the one-year deadline. However that provision is
not available to obtain relief on grounds encompassed in
the three other referenced subdivisions (Levinsky v.
-State, 146 Vt. 316, 317-318 (1985); Olde & Co. v.
Boudreau, 150 Vt. 321, 323 (1988), which other Rule
60(b)(1) to (3) subdivisions the court finds applicable
here.
Lastly the court has considered the possible appli­
cation of what has been termed as “fraud on the
court” that may be asserted under Rule 60(b). Vermont
caselaw makes clear is a narrow exception and may
only be shown “by the most egregious misconduct
directed to the court itself, such as ... fabrication of
evidence by Counsel,' and must be supported by clear,
unequivocal and convincing evidence.”. Godin v. Godin,
168 Vt. 514, 519 (1998)2. Similar to the “fraud on the
2 The Godbin Court, after stating that alleged witness perjury
is insufficient to prove fraud on the court, cited the Moore’s Fed­
eral Practice ‘treatise and noted “[i]f fraud on the court were to
be given a broad interpretation that encompassed virtually all

App.l4a

court” claims asserted in Godin and Olio v. Olio,
2012 VT 44, 192 Vt. 41, the claimed fraud here did
not approach the kind of “calculated, egregious ‘defiling’
of the adjudicative process that has traditionally
characterized fraud on the court”. 168 Vt. at 520,
quoting and citing Great Coastal Express, Inc. v.
International Bhd. of Teamsters, 675 F.2d 1349, 1356
(4th Cir. 1982).
The motions are DENIED. The court declines to
award sanctions or grant an award of attorney’s fees
against Mr. Dasler as the result of his filing and
pursuit of these motions.
Electronically signed on April 01, 2020 at 07:09
PM pursuant to V.R.E.F. 7(d).

/si Michael J. Harris
Superior Court Judge

forms of fraudulent misconduct between the parties, judgments
would never be final and the time limitations of Rule 60(b)
would be meaningless” 168 Vt. at 518-519.

App.l5a

ORDER OF THE VERMONT SUPERIOR COURT,
ORANGE UNIT FAMILY DIVISION
(MAY 4, 2020)
STATE OF VERMONT SUPERIOR COURT
ORANGE UNIT FAMILY DIVISION

JENNIFER DASLER,
Plaintiff,
v.
TIMOTHY DASLER,
Defendant.
Docket No. 74-6-17 Oedm
The court has considered Mr. Dasler’s 4/14/20
motion asking for reconsideration of the 4/2/20 entry
order.
Rule 59(e) “gives the court broad power to alter
or amend a judgment.” Reporter’s Notes, V.R.C.P. 59.
We have stated that Rule 59(e), largely identical to
Federal Rule of Civil Procedure 59(e), is invoked ‘“to
support reconsideration of matters properly encom­
passed in a decision on the merits.’” In re Robinson/
KeirP’ship, 154 Vt. 50, 54, 573 A.2d 1188, 1190 (1990)
(quoting White v. N:H. Dep’t of Emp’t Sec., 455 U.S.
445., 451, 102 S. Ct. 1162, 71 L.Ed.2d 325 (1982)).
Under this rule, “the court may reconsider issues pre­
viously before it, and generally may examine the cor-

App.l6a

rectness of the judgment itself.” Id. (quotation omitted).
That is, Rule 59(e) “codified the trial court's inherent
power to open and correct, modify, or vacate its judg­
ments.” Drumheller v. Drumheller; 2009 VT 23, % 28,
185 Vt. 417, 972 A.2d 176; see 11 C. Wright et al.,
Federal Practice and Procedure § 2810.1, at 124-25
(2d ed. 1995) (describing correction of manifest error
of law upon which judgment is based as one of four
basic grounds upon which Federal Rule of Civil Pro­
cedure 59(e) motion may be granted). The trial court
enjoys considerable discretion in deciding whether to
grant such a motion to amend or alter. 11 Wright,
supra, § 2810.1, at 124.
The court denies the 4/14/20 motion as the motion
to reconsider. The recent motion lacks sufficient
grounds for the court to reconsider the correctness of
it 4/2/20 order, which 4/2/20 order in turn relates to
the arguments asserted in the 1/23/20 motions which
were already considered. Mr. Dasler may appeal the
court’s 4/2/10 denial of those prior 1/23/20 motions
and/or this ruling on his 4/14/20 motion to the Vermont
Supreme Court.
Electronically signed on May 04, 2020 at 03:15
PM pursuant to V.R.E.F. 7(d).
/s/ Michael J. Harris
Superior Court Judge

App.l7a
DEFENDANT TIMOTHY DASLER
MOTION TO REARGUMENT
(MARCH 8, 2021)
SUPREME COURT, STATE OF VERMONT
JENNIFER DASLER,
Plaintiff.
v.
TIMOTHY DASLER,
Defendant.
Docket No. 2020-146
Timothy Dasler, appellant, moves for reargument
of this court’s 3/5/21 decision. As grounds for this
motion, Mr. Dasler states that there are certain points
of law and fact, presented in the brief upon the original
argument, that the court has overlooked or misappre­
hended and which would probably affect the result.
The Court’s attention is respectfully referred to the
following argument in support of the motion.
Fraud Upon the Court
1. This court’s interpretation of Fraud Upon the
Court for the purposes of Rule 60 relief differs signif­
icantly from the Federal definition. As a duplicate of a
Federal rule, the interpretation under Rule 60 should
conform with Federal standards.

... w

*. -

App.lSa

2. In the Dasler case the dominant factor was
Ms. Dasler’s withholding of visitation for 9 months
(and all 3 factors were dependent on Ms. Dasler’s tem­
porary order and accusations). That is the one factor
the court put heavy weight upon. As indicated by the
court’s citations in the decision, the court’s consideration
was that Ms. Dasler had become primary caregiver
and consequently it was up to Mr. Dasler to prove
that arrangement would be harmful. In other words,
by the court’s reasoning, the burden had shifted to
Mr. Dasler to disprove the merit of Ms. Dasler’s pre ­
judgement attachment of parental rights.
3. In essence, all the ‘relevant’ factors that the
court relied upon were decided on the basis of Ms.
Dasler’s accusation and consequences of the temporary
order. It was overwhelmingly the dominant factor in
the case, although the court didn’t put heavy weight
on the alleged assault itself.
4. That pre-trial attachment of rights was achieved
through an exparte order, and Ms. Dasler never
prevailed in any hearing justifying the merits of that
temporary restriction of rights, so it is clear that her
pre-trial action has subverted the normal course of
justice and shifted the burden entirely to Mr. Dasler.
5. The real issue here is that there is evidence
that she took steps to arrange the RFA prior to there
being probable cause for the assault allegation, she
sought Mr. Dasler at multiple locations that afternoon
and set out to force a confrontation so she could
frame him for conduct that would justify the RFA
that she had already arranged to file in the morning.
6. tier cell phone evidence, not available prior to
the hearing, clearly indicates that this exparte order

App.l9a

was fraudulently obtained, and denied Mr. Dasler a
fair opportunity in that the mere existence of the
temporary order shifted the burden entirely to Mr.
Dasler.
“fraud upon the court occurs where it can be
demonstrated, clearly and convincingly, that
a party has sentiently set in motion some
unconscionable scheme calculated to interfere
with the judicial system’s ability impartially
to adjudicate a matter by improperly influ­
encing the trier or unfairly hampering the
presentation of the opposing party’s claim or
defense.”
Braun v. Zhiguo Fu, No. Ilcv04383 (CM) (DF), 2015
U.S. Dist. LEXIS 90652, at *46 (S.D.N.Y. June 19,
2015)
7. By the standard in Braun it is really clear
that Ms. Dasler’s actions constitute “fraud upon the
court”. If Mr. Dasler is able to prove what was
presented in his motion, which is supported by physical
evidence and testimony of multiple parties, then it is
clear that Ms. Dasler’s intent was to subvert the
normal functioning of the system through this fraud­
ulent accusation.
8. Even if the court does not believe that her
fraud rises to Fraud Upon the Court, it is still an
extraordinary circumstance due to the numerous
constraints on Mr. Dasler in his effort to defend
himself. As such, even ordinary fraud in extraordinary
circumstances falls within Rule 60 (B)(6) as cited below.
9. More broadly, though, fraud constitutes exactly
what Ms. Dasler did, and how she controlled Mr.
Dasler’s ability to present a defense, and how she

App.20a

changed the standards to shift the burden to Mr.
Dasler entirely.
“Extrinsic fraud is a broad concept which
covers a number of situations. The presence
of an extrinsic fraud claim necessarily
depends upon the facts of the case. Galper
v. Galper, 162 Cal. App. 2d 391, 396-97, 328
P.2d 487 (1958); see also 8 E.B. WITKIN,
California Procedure, §§ 204-10, 215A (3d
ed. 1988 & Supp. 1996) (reporting cases where
a party was kept in ignorance of a lawsuit
or was induced* not to appear, a claim or
defense was concealed from a party, and
cases where the prevailing party obtained
the judgment through coercion or duress).”
Lake v. Capps {In re Lake), 202 B.R. 751, 758 (B.A.P.
9th Cir. 1996)
In Marine Ins. Co. ofAlexandria v. Hodgson
(11 U.S. 332, 7 Cranch [11 U.S.] 332, 336, 3
L. Ed. 362) Chief Justice MARSHALL said:
“that any fact which clearly proves it to be
against conscience to execute a judgment,
and of which the injured party could not
have availed himself in a Court of law; or of
which he might have availed himself at law.
but was prevented bv fraud or accident
unmixed with any fault or negligence in
himself or his agents, will justify an applica­
tion to a Court of Chancery.” (emphasis
added)
“On the other hand, it is equally inappropriate
that all judgments be treated as absolutely
inviolable. Particularly is this true when a

App.21a

judgment has been procured by the fraud of
the successful party. To immunize such a
judgment from attack is to compound the
injustice of its result on the merits with the
injustice of the means by which it was
reached. Equally important, if judgments
were wholly immune it would give powerful
incentive to use of fraudulent tactics in
obtaining a judgment. A litigant would know
that if he could sustain duress or deception
through the moment of finality, the benefit
of the judgment would be his forever.”
Restatement (Second) of Judgments § 70 (1982)
Rule 60 (B)(6)
10. The court fails to distinguish between the
cause of action and the existence of new evidence.
The issue at hand here isn’t that Mr. Dasler discovered
evidence after the trial and didn’t present it within a
year. Rather it is that there is evidence that COULD
NOT have been presented within that window of time
due to procedural defects, which Ms. Dasler played a
role in manipulating.
11. The purpose of Rule 60(B)(6) is to create an
opportunity to correct injustices, and the exclusion of
factors 1-3 is simply to ensure it doesn’t provide an
end run around the statute of limitations unless
there are extraordinary circumstances. When the
cause of action is a procedural defect, however, any
such case would include evidence and/or defenses not
presented at the prior hearing.

App.22a

12. Federal precedent recognizes that exceptional
circumstances allow Rule 60(b)(6) relief even when
factors 1-3 may be present.
“Since excusable neglect is a ground for
relief recognized by Rule 60(b)(1), it is not,
under normal circumstances, a ground for
rebef under Rule 60(b)(6). Moreover, Collectron
has not shown that there are extraordinary
circumstances justifying relief, or that the
judgment will work an extreme and undue
hardship.
[*24] Collectron points to Byron v. Bleakley
Transp. Co., 43 F.R.D. 413 (S.D.N.Y. 1967),
and Canario v. Lidelco, Inc., No. 84 CV 4657,
1987 WL 12012 (E.D.N.Y. May 29, 1987), in
support of its argument. Under Byron and
Canario, a court may use Rule 60(b)(6) to
vacate a default judgment resulting from a
defendant corporation’s failure to notify the
Secretary of State of a change in address,
but only in unusual circumstances. The Bvron
court, for instance, vacated a default judg­
ment pursuant to Rule 60(b)(6) only be­
cause the plaintiff served process on the
Secretary of State even though it knew the
defendant’s current address, and because
the defendant, who had a meritorious
defense to the action, had little reason to
expect the lawsuit. See Byron, 43 F.R.D. at
415. Similarly, the Canario court withheld
decision on a motion to vacate under Rule
60(b)(6) pending the result of an evidentiary
hearing into “the dispositive issue” of whether
the plaintiffs knew the defendant’s current

!

App.23a

address, but nevertheless served process on
the Secretary of State knowing that defend­
ant would not receive it. See Canario, 1987
WL 12012, [*25] at *4.”
Miller v. Collectron Corp., 98-CV-2221 (JG), 1999 U.S.
Dist. LEXIS 14413, at *23-25 (E.D.N.Y. Sep. 16, 1999)
(emphasis added)
13. The SCOTUS has also supported that extra­
ordinary circumstances are exceptions to Rule 60 (l3) issues because effectively the cause of action isn’t
the issue of (1-3), but rather the extraordinary cir­
cumstance that includes factor (1-3) and it is the 6th
factor (extraordinary circumstance) that forms the
exception to the 1-year statute of limitation, not the
existence of factor 1-3 that bars relief on the basis of
factor 6.
“It is contended that the one-year limitation
bars petitioner on the premise that the
petition to set aside the judgment showed,
at most, nothing but “excusable neglect.”
And of course, the one-year limitation would
control if no more than “neglect” was disclosed
by the petition. In that event the petitioner
could not avail himself of the broad “any
other reason” clause of 60 (b). [ •kickic 16] But
petitioner’s allegations set up an extraordi­
nary situation which cannot fairly Or logically
be classified as mere “neglect” on his part.
The undenied facts set out in the petition
reveal far more than a failure to defend the
denaturalization charges due to inadvertence,
[**390] indifference, or careless disregard of
consequences. Klapprott v. United States, 335
U.S. 601,-613-14, 69 S. Ct. 384, 389-90 (1949)

.. f,

App.24a

Availability of Immunity/Stay
and Time to Prepare Defense
14. This court’s decision states that Mr. Dasler
could have sought either a stay or immunity, however,
neither is an option in this case. Even if the court
granted immunity to Mr. Dasler’s testimony in the
Family Court case, Ms. Dasler is in the room and is
involved in aiding the prosecution build a case against
Mr. Dasler. The prosecution still would get a full
preview of Mr. Dasler’s defense, and Ms. Dasler
would be able to adjust her version of events to work
around any testimony/evidence presented by Mr. Dasler.
15. Ms. Dasler’s shifting versions of events can
be seen in the changes from her RFA Affidavit(l/2/20
Motion for Relief from Judgement pg. 10) to her later
testimony, and also in her 7/19/17 Motion to Suspend
Visitation claiming “several bruises” that Mr. Dasler
“did not explain” and upon learning that evidence
existed to disprove these claims she shifted to “devel­
oped into a black eye” and admitted that Mr. Dasler
explained the child’s slip and fall at the bubble
exhibit in full detail, but covered for her claim that
he “did not explain how the minor child was injured”
(7/19/17 Motion) by testifying he “didn’t indicate
whether he had treated her wounds” (2/16/18 Tran­
script Pg. 67 L 13-17) (1/2/20 Motion for Relief from
Judgement pg. 20).
16. The point is, that with the pre-knowledge of
Mr. Dasler’s testimony and evidence Ms. Dasler can
and will come up with new versions of events to
make her accusations appear plausible, and in a hesaid/she-said case that is extremely prejudicial to Mr.
Dasler’s criminal defense. Mr. Dasler was not able to
get a criminal attorney to investigate and obtain any

App.25a

physical evidence until after the Family Court case
had concluded. This was due in large part to the
difficulty of fending off parallel civil/criminal litigation,
the financial issues involved, Mr. Dasler’s need to
relocated due to Ms. Dasler’s accusations, being
barred from his home shop where he was working
self-employed at the time, Ms. Dasler’s ability to take
1/3 of his income through child support, and Ms.
Dasler’s constant flood of litigation including 170
pages of filings, and 3 additional criminal accusa­
tions since the 5/12/17 accusation and separation of
the parties.
17. As a result of this series of events, Mr. Dasler
is also well aware that Ms. Dasler can continue to
come up with new versions, even when the conflict
with prior written testimony, and is given special
deference as the self-proclaimed “victim”. Meanwhile
the prosecutor has his thumb on the scale so to speak
when it comes to perjury charges and he can find no
instance of a prosecutor ever charging their own
witnesses with perjury. It is also clear that Ms. .
Dasler’s attorney was aware of the change from the
version of events in her 7/19/17 Motion to her later
testimony (if not before the filing) and was content to
aid her in modifying her version of events to work
around the evidence, so Mr. Dasler certainly has no
confidence that “professional standards” prevents an
attorney from aiding in misrepresentation to the
court.
18. There does not exist any process whereby
Mr. Dasler can defend himself in family court prior
to the resolution of criminal charges without Ms.
Dasler being able to review his testimony/evidence
and compromise his case.

p.

App.26a

19. The result is that if Mr. Dasler does not
present at least some level of defense, then he stood
to lose contact entirely through this flood of accusations.
With a lack of prejudgment protection, the only way
to provide real justice in this case (within existing
court rules) is to allow a Rule 60 Motion after the
constitutional conflict of parallel civil/criminal litigation
has resolved because neither stay, nor immunity
prevents prejudice to Mr. Dasler’s cases.
20. Through these accusations it appeared that
Ms. Dasler’s.goal was to force Mr. Dasler into an
impossible situation where he could not defend himself,
couldn’t afford representation, and caved to the
extortion campaign. This is indicated by the standing
offer (50/50 PCC if Mr. Dasler would agree to give
Ms. Dasler PRR) reiterated throughout the campaign
to sever Mr. Dasler’s PCC (1/20/20 Motion Pg. 24).
There is absolutely no doubt that Ms. Dasler and
counsel knew that Mr. Dasler was not dangerous,
but as we see in the Knutsen series of cases, she
doesn’t need to show that he is dangerous, she can
prevail regardless of the merit of the accusations
simply by keeping a fit parent away from a child.
21. Consequently, Mr. Dasler faces a penalty of
deprivation of child custody until he defends himself
against those accusations. There was no immediate
danger ever substantiated, but that didn’t stop her
from withholding PCC/PRR.
“Juvenile custody cases in Vermont are civil
and not criminal proceedings. Nevertheless,
the privilege against self-incrimination applies
in civil as well as criminal litigation. The state
cannot compel an individual to testily against
himself or herself at least without an appro-

App.27a

priate grant of immunity in any subsequent
criminal prosecution. Additionally, the state
may not impose a penalty or sanctions against
ah individual for invoking the privilege.
There is no question that deprivation of
custody of a child is a sanction for purposes
of U.S. Const, amend. V.”
In re MCE, 153 Vt. 275, 279, 571 A.2d 627, 629 (1989)
22. Similarly, a stay of proceedings is of no avail
in this case. Ms. Dasler filed 170 pages of motions
and made at least 3 additional calls to police with
criminal accusatioiis in the 9 months between separa­
tion and the last filing seeking to interfere with
“normalization of contact”. It cost Mr. Dasler $15,000
just to get to “normalization of contact” in the 2/23/18
Order, which had already been agreed upon in the
6/9/17 Mediation Agreement. By the time of the Final
Divorce Hearing Mr. Dasler had already fended off
the attempt to get the child on an RFA, and 7 motions
seeking to interfere with PCC that had already been
agreed to (with no reasonable grounds to justify the
interference).'
23. After the failure of all of these attempts, Ms.
Dasler fired her attorney and hired Attorney Loftus.
The indication to Mr. Dasler is that he needs to brace
for more litigation, which was well beyond his means.
24. Simultaneously he was paying child support,
which left him with $1,200/month to defend against
the litigation and pay all his bills, which illustrates
the impossibility of ipeeting all of these needs (and a
parallel criminal defense).
25. All of this is further compounded by the
precedent of Knutsen and Cabot, both of which allow

App.28a

a parent to prevail by wrongfully keeping a fit parent
away from a child because the court may not “punish”
the offending parent by shielding the child from that
form of abuse (wrongfully denying contact with a fit
parent).
26. The notion that Ms. Dasler prevails by
keeping a fit parent away from a child is as well
established as any legal principle in Vermont Family
Court. Mr. Dasler argues, however, that it is a
principal that is absolutely wrong, harmful to
children, and only encourages such abuse. This point
of view is also shared by the dissent in Cabot
“I disagree only with the majority’s holding
that the family court exceeded its authority
by awarding joint legal parental rights and
responsibilities. The holding ignores the plain
meaning [***38] of 15 V.S.A. § 665(a), which
requires the court to award parental rights
primarily or solely to one parent when the
parents cannot agree to share those rights.
Worse, it provides further incentive for
divorcing parents who are primary caregivers
to refuse to cooperate with their spouses on
sharing parental rights and responsibilities,
and thus undermines the Legislature’s stated
policy of furthering children’s best interests
by maximizing their continuing physical and
emotional contact with both parents following
divorce. 15 V.S.A. § 650.”
Cabot v. Cabot, 166 Vt. 485, 505, 697 A.2d 644, 657
(1997)
27. In this case, the issue here forms a procedural
defect such that the hearing was inconsistent with

App.29a

due process. There was no available protection when
Mr. Dasler pled the 5th, and the only ‘pressure
release’ is Rule 60.
28. So the choice was to plead the 5th with no
protection or waive the 5th when proving “no factual
basis” would not change the fact that Ms. Dasler had
already achieved a temporary order favoring her
such that the burden shifted entirely to Mr. Dasler.
Therefore, waiving the 5th would not change the case
even if he disproved her allegations and it would only
prejudice her criminal case while he still had not
obtained the evidence to disprove her fraudulent accu­
sations.
29. This procedural defect does not protect Mr.
Dasler’s 5th and 14th Amendment and should render
the judgement void for being inconsistent with due
process.
Child’s Best Interest
30. As cited in the Cabot dissent above, the
Secy’s long holding that the lower court may not
shield the child from the weaponization of PCC/PRR
(because the parent may prevail by wrongfully with­
holding PCC/PRR) is harmful to children (Cabot v.
Cabot,. 166 Vt. 485, 488, 697 A.2d 644, 646 (1997)).
31. The question of the best interest of the child
is. fundamental to this case generally, and a funda­
mental component is the issue that the child does not
register any gain from an erroneous finding of abuse.
In other words, the child only benefits from a correct
finding, and the risk should not be equally balanced
between the parties. This is consistent both with the
VT Legislature’s finding that the child’s interests are

, , App,30a

best served with maximizing time with both parents,
and Santosky v. Kramer’s finding that the “The state
registers no gain toward its declared goals when it
separates children from the custody of fit parents.”
32. Cabot’s finding that the court should focus
on “the best interest of the child, not equity between
the parties.” is another reason to grant relief in this
case. It is clearly in the child’s best interest to
prevent an abusive parent (Ms. Dasler in this case)
from using a false allegation of abuse to form a smoke
screen to prevent scrutiny of their own history of
abuse and mental health issues that have been life
threatening to both parents. By hiding behind the
false claim of “domestic abuse victim” Ms. Dasler
severely hindered Mr. Dasler’s ability to present these
issues. This history is important for the court to
make reasonable decisions that support the child’s
best interest.
Constitutional Issue
34. The question of whether it is unconstitution­
al to make the custody battle a “battle between the
two parties” simply because one parent doesn’t feel
like sharing is foundational to Mr. Dasler’s due
process challenge raised with the lower court, how­
ever, the lower court was bound by the precedent of
the SCOV, which has routinely upheld the applica­
tion of § 665 even though it declined to consider the
constitutionality of the statute in other cases. Fleshing
out the § 665 challenge to a court bound by SCOV
precedent would not have changed the lower court’s
decision.

App.31a

35. There is substantial precedent laid out below
that illustrates why this court should consider the
§ 665 challenge.
36. Mr. Dasler also recognizes that the Rocket
Docket is bound by precedent, thus cannot set precedent
by declaring the statute Unconstitutional. Perhaps
the court’s view that it could not consider this question
is one reason this case ended up on the Rocket
Docket, and Mr. Dasler does not understand whether
or not there is still opportunity to move the case to
the full panel upon compelling argument, so he will
still lay it out.
37. Even if the court does not find § 665 Uncon­
stitutional, the argument is still relevant to point out
that the process has already compromised Mr. Dasler’s
right to due process before the parallel civil/criminal
litigation issue enters into it, which makes it a
compounding factor that has not been addressed in
any precedential decision Mr. Dasler can find.
38. This court’s decision cites State v. Ben-Mont
Corp., 163 Vt. 53, (1994) and Bull v. Pinkham Eng’g
Assoc., 170 Vt. 450 (2000) in denying consideration of
the constitutional challenge to 15 V.S.A § 665. Following
back the series of citations in these cases nearly 100
years fails to yield any foundation in law to justify
the approach..
39. SCOV case law indicates exceptions to this
apparently court-made rule
uu

Ordinarily, an issue raised for the first
time on appeal is not eligible for review.”
State v. Billado, 141 Vt. 175, 183, [**761] 446
A.2d 778, 782 (1982).” State v. Nash, 144
Vt. 427, 433, 479 A.2d 757, 760-61 (1984)

App.32a

40. As for when the “ordinary” rule doesn’t apply,
it does not appear to be well defined, however, one
exception appears to be
“unless the error is a glaring error so grave
and serious that it strikes at the heart of a
defendant’s constitutional rights.” State v.
Billado, 141 Vt. 175, 179, 446 A.2d 778, 780
(1982)
41. This is certainly true of the case at bar, and
the issue could not have been resolved by the lower
court. As Mr. Dasler laid out in his brief, the pre­
sumption that one party can waive the appropriate
evidentiary standard for the other party is an absurd
proposition and is founded in an elementary error in
presuming that it is a “battle between the two parties”
rather than recognizing what both the VT legislature
and SCOTUS (but somehow not the SCOV) recognize.
That the child registers no gain when erroneously
taken from a-fit parent. That is a pretty significant,
and glaring error that also illustrates just how far
the Family Court process has fallen from what
constitutes “due process” in such a case.
42. The justification for requiring the issue be
raised at the lower court is to avoid issues that
could/should have been addressed in the trial court
such that they could effect the outcome and fairness
and avoid mistrial/retrial. In this instance, however,
raising § 665 challenge would not have changed
anything in the lower court because there is substantial
SCOV case law upholding the application of § 665
even if it hasn’t directly addressed the constitutionality
of the statute itself.

App.33a

“The purpose of such a rule “is to require
that correctable error be addressed initially
in the trial court. Its justification lies in
promoting fair trials, ‘maximizing correct
decisions and concomitantly minimizing errors
requiring mistrials and retrials.’” Id. (quoting
Henry v. Mississippi 379 U.S. 443, 463 (1965)
(Harlan, J., dissenting)).”
State v. Billado, 141 Vt. 175, 188, 446 A.2d 778, 785
(1982)
43. The same SCOTUS dissent cited in State v.
Billardo goes on to flesh out an important exception.
“Errors affecting [*456] fundamental rights
are [iekkie 24] exceptions to the rule that
questions not raised in the trial court cannot
be raised for the first time on appeal.”
Brooks v. State, 209 Miss. 150, 155, 46 So.2d
94, 97.” Henry v. Mississippi, 379 U.S. 443,
455-56, 85 S. Ct. 564, 572 (1965) (dissent)
44. Ordinarily discretionary rules exist to allow
principals of equity and justice to prevail, and allow
a party to argue that a procedural default should be
excused through an exercise of judicial discretion (as
in Brooks v. State above)
45.Multiple Federal courts also have fleshed out
their exceptions involving important constitutional
questions. The issue raised by Mr. Dasler would fall
into exceptions outlined by both the 6th and 9th
circuits because it is an important constitutional
question that is purely one of law and the necessary
facts to consider the question are fully developed.

App.34a

46. “This court will generally not consider an
issue raised for the first time on appeal. Bolker v.
Commissioner, 760 F.2d 1039, 1042 (9th Cir. 1985).
Three exceptions to this rule exist: (l) in an
“exceptional” case when review is necessary to
prevent a miscarriage of justice or to preserve the
integrity of the judicial process, (2) when a new issue
arises while appeal is pending because of a change in
law, or (3) when the issue is purely one of law and
the necessary facts are fully developed.” Romain v.
Shear, 799 F.2d 1416, 1419 (9th Cir. 1986)
47. “See People v. Heim, 206 Mich. App. 439,
522 N.W.2d 675, 676 (Mich. Ct. App. 1994) (agreeing
to review a claim for the first time on appeal as an
exception to the usual rule “because [the claim] involves
an important constitutional question”).” Kircher v.
CityofYpsilanti, 809 F. App’x 284, 300 (6th Cir. 2020)
Considering the reasons given by multiple courts
(including Vermont), it is appropriate to consider the
question.
Misrepresentations in Oral Arguments
48. It should be noted that there were several
false representations in Attorney Sheng’s oral argu­
ments.
49. Attorney Sheng claimed that Mr. Dasler plead
“no contest to the charges” when in fact it was a plea
to lesser charges that would not have justified Ms.
Dasler’s Family Court actions. Moreover, Ms. Dasler’s
accusation is what allowed her ex-parte order and a
plea to lesser charges in no way justifies her action.
50. He also claimed the court heard the mental
health issue, but in fact the court only narrowly heard

App.35a

a portion as Mr. Dasler was cross examined about an
email to Ms. Dasler where her counsel sought to
roast Mr. Dasler for telling the self-proclaimed “victim”
to get mental health counseling. Mr. Dasler had to
defend his statement in the email, and gave some
testimony about the basis for this email, however,
the fact that it was not raised in Mr. Dasler’s case
led the court not to put any weight on it whatsoever.
“Mr. Dasler never raised an issue as to her present
mental-emotional fitness to parent her daughter
during the temporary PRR-PCC proceedings in this
case” (8/17/18 Final Divorce Order § 118).
51. As cited in Mr. Dasler’s brief, he was advised
that he would likely face consequences for “blaming
the victim” and appearing to increase acrimony if he
challenged her mental health in court prior to resolving
the criminal charges. He had no control over the
timing of that resolution.
52. Attorney Sheng also claimed that Mr. Dasler
was able to testify about the events. It is clear in the
record that Mr. Dasler did not testify about the
alleged assault or Ms. Dasler’s history of violence,
nor could he provide the physical evidence (which
was not yet available) that showed Ms. Dasler’s pre­
arrangement of the RFA and steps taken to frame
Mr. Dasler for assault.
WHEREFORE, Mr. Dasler respectfully request
that the court;
A.

Grant Mr. Dasler a new hearing

B.

Award Mr. Dasler fees and costs

C.

Grant such other relief as deemed just and
fair

App.36a

Respectfully Submitted
/s/ Timothy Dasler
3/18/21

.

L

App.37a
DEFENDANT TIMOTHY DASLER
MOTION TO RECONSIDER
(APRIL 14, 2020)
STATE OF VERMONT SUPERIOR COURT
ORANGE UNIT FAMILY DIVISION
JENNIFER DASLER,
Plaintiff,
v.
TIMOTHY DASLER,
Defendant.
Docket No. 74-6-17 Oedm
NOW COMES Timothy Dasler respectfully
requesting that the court reconsider its Order denying
Mr. Dasler’s Relief from Judgement Motion.
Time Frame for Filing
Although this Court did not believe the time to
file the underlying motion was stayed pending appeal,
the Court rendered a decision on their merits.
As such, Mr. Dasler is not going to address the
time frame unless the court asserts that this prevents
reconsideration on the merits or prevents a hearing.

App.38a

14th Amendment Protection
When this court initially heard the Dasler’s
divorce case, it should have recognized Mr. Dasler’s
right to due process under the 14th Amendment.
Troxel v. Granville, 530 U.S. 57 (2000) reaffirms that
the 14th Amendment right to due process extends to
parental rights, and makes numerous citations of
Federal cases supporting this right.
“The Federal Constitution permits a State
to interfere with this right only to prevent
harm or potential harm to the child”
and
“The Fourteenth Amendment’s Due Process
Clause has a substantive component that
“provides heightened protection against govern­
ment interference with certain fundamental
rights and liberty interests,” Washington v.
Glucksberg; 521 U.S. 702, 720, including
parents’ fundamental right to make decisions
concerning the care, custody, and control of
their children, see, e.g., Stanley v. Illinois,
405 U.S. 645, 651. Pp.63-66.”
There should be no doubt that Mr. Dasler’s
parental rights were protected by the 14th Amendment,
however, this court chose not to apply that protection
as is the custom in VT. The Vermont Supreme Court
has upheld that the lower courts vast discretion and
ignored the 14th Amendment rights.
Compelled Election Between Constitutional Rights
On 5/12/17 Mr. Dasler told Ms. Dasler lie was
leaving (not in controversy). After she repeatedly called

App.39a

him and tracked him throughout the day, she then
falsely accused Mr. Dasler of assault. That false
claim shifted the entire landscape of the case and
infringed upon his parental rights. Mr. Dasler was
charged with assault and from that moment the only
way to preserve both Mr. Dasler’s 5th and 14th
Amendment right would be to issue a temporary
order on parental rights and stay any final order
until the resolution of the criminal charge.
Failure to prioritize the criminal charge before
the final hearing on parental rights forced Mr. Dasler
to choose between his 5th and 14th Amendment
right. Under Procedural Due Process Mr. Dasler has
a right to be heard, but holding the final hearing
before the criminal charge is resolved deprives Mr.
Dasler of that opportunity.
There is voluminous case law indicating that
free exercise of Constitutional Rights is violated when
a party is forced to waive one Constitutional Right to
exercise another.
For instance, Allen v. Honolulu, 39 F.3d 936 (9th
Cir. 1994) finding the plaintiff “cannot be forced to
sacrifice one constitutionally protected right solely
because another is respected.
United States v. Aguirre, 605 F.3d 351, 358
(6th Cir. 2010) where a “defendant has dis­
closed truthful information to demonstrate
financial inability and obtain counsel under
the Sixth Amendment, that information
may not thereafter be admitted against him
at trial on the issue of guilt.”. Citing this
Court’s decision in Simmons, the Sixth
Circuit held that admitting such information

App.40a

at trial would erroneously “force a defendant
to choose between his Sixth Amendment right
to counsel and his Fifth Amendment right
against self-incrimination.”
The Third Circuit concurred in United States
v. Pavelko, 992 F.2d 32, 34 (3d Cir. 1993)
holding that a district court erred “when it
admitted the testimony and the financial
affidavit, and thus created a tension between
[the defendant’s] Fifth and Sixth Amend­
ment rights. It in effect conditioned the free
exercise of one constitutional right upon
waiver of the other.”. As the court explained,
“the Supreme Court has held in a similar
context that placing an accused in such a
dilemma and creating this tension between
the free exercise of rights is constitutional
error.” Id. (discussing Simmons, 390 U.S. at
377).
In Greene v. Brigano, 123 F.3d 917, 921
(6th Cir. 1997) the court found it is likewise
impermissible to offer a defendant access to
a free trial transcript for appeal only if he
chooses to be represented by court-appointed
appellate counsel. Citing Simmons, the Sixth
Circuit held that imposing this condition
would, “in effect, require D an indigent defen­
dant to surrender one constitutional right in
order to exercise another”—i.e., to “surrender
his Sixth Amendment right to self-repre­
sentation in order to exercise his
Fourteenth Amendment right to the basic
tools of adequate appellate review.”

App.41a

The issue of whether or not a person may be
forced to sacrifice one Constitutional Right to claim
another is settled law as is the question of whether
or not Mr. Dasler’s parental rights are protected by
the 14th Amendment. Thus, this Court disregarded
Mr. Dasler’s constitutional rights when it entered a
final determination without providing Mr. Dasler
with the opportunity to present all of his evidence.
The common practice in VT is to use a temporary
order as the framework for a final order, and Mr.
Dasler’s temporary restriction of parental rights all
but guaranteed a final order against him the longer
that temporary order is in effect. Even if there were
some mechanism for Mr. Dasler to delay a final order
the point becomes moot given VT precedent of favoring
the accuser even if the accusations are proven to
have “no factual basis” (Knutsen v. Cegalis, 2016 VT
2 No. 2015-133) and that the emotional trauma to
the child was caused by the accuser indoctrinating/
brainwashing a young child to believe the false alle­
gations. As long as VT does not recognize Mr. Dasler’s
14th Amendment right a delay in the hearing simply
guarantees that he loses regardless of the facts of the
case.
Mr. Dasler’ intent is to press the issue with the
state of VT and, if need be, seek a Federal ruling re­
quiring that the state recognize 14th Amendment
protection of due process in divorce/custody decisions.
Mr. Dasler feels that a federal review may be necessary
to rectify a terrible flaw in the family court system.
Prior Bad Acts
This court states that “prior bad acts” as inad­
missible. It is unclear why the court would make this

App.42a

claim, however, these bad acts were before the criminal
court in a pre-trial motion which Mr. Dasler’s criminal
counsel believed to be pertinent and admissible. The
Court should consider Ms. Dasler’s actions in creating
the scenario in which she could falsely allege that
abuse occurred in order to afford Mr. Dasler the full
protection of the law.
In addition, there were times during the marriage
in which Ms. Dasler exhibited suicidal and irrational
behavior, which if considered by the Court, would
have weighed heavily on its determination of her
credibility. The acts of a ‘reasonable person’ must be
viewed in light of Mr. Dasler’s prior experience with
this violent and unstable person who has threatened
his life on multiple occasions.
Mr. Dasler could not testify regarding the specific
events regarding 5/12/2017 due to his 5th amendment
right. Once his criminal charge was resolved, he was
able to submit evidence regarding the events of that
day which again could have impacted the Court’s
view of her credibility.
The ‘Shotgun Doctrine’
The broad reaching effect of Ms. Dasler’s accusa­
tions and how her fraudulent accusations shaped the
rest of the case can best be described by a familiar
childhood analogy.
While the “Tender Years Doctrine” has supposedly
been replaced by the “Best Interest of the Child”, in
actual practice the doctrine that supersedes all other
practices in VT Family Court is best described as the
“Shotgun Doctrine”.

App.43a

This is the best analogy to demonstrate how the
divorce court functions and systematically discriminates
against parents providing a very low bar of entry for
a parent to subvert the system guaranteeing special
treatment from the court for years to come.
“The Shotgun Doctrine” is so named for a prac­
tice familiar to pre-teen children for decades. When
it’s time to get in the car the first to yell “Shotgun!”
gets the front seat. They may not be driving the car,
but they get the best view, control of the radio, etc . . .
In VT Family Court the equivalent of calling
“Shotgun” is to make any accusation that may tempo­
rarily interrupt the PCC/PRR of the other parent.
Under this doctrine the accusation need not be rea­
sonable, and in fact ’even if the accusation is proven
to be “without factual basis” the temporary order
justifies a final order (Again, citing Knutsen 2017 VT
62), thus securing that coveted control ‘front seat’
control over the judicial process.
How does this relate to family court arid this
case? When Mr. Dasler told Ms. Dasler he was
leaving (an undisputed fact), Ms. Dasler sought leverage
with an accusation. And bam! “Ha! she called it.
Before he ever got out of the house!” Now Mr. Dasler
is subjected to a parallel system of justice.
In this parallel system it doesn’t actually matter
whether or not Ms. Dasler’s accusations are true or
unequivocally false. The only question is how long
she can obstruct Mr. Dasler’s PCC.
The Knutsen case illustrates very well what
happens when the accusations are proven to be
“without factual basis” and fabricated by the accuser.
What happens then? The accuser still prevails because

:v

App.44a

they’ve managed to keep the accused away from the
child for years.
Under the “Shotgun Doctrine” there is absolutely
no consequence to making an accusation as long as
- you call it first. In this case, for example, Ms. Dasler
admits to initiating physical contact with Mr. Dasler,
seeking physical control over him, and claims that
only after that did he allegedly push her and leave.
By her own testimony he had tried to escape her no
less than 4 times in 24 hours. Does that matter to
the court? No, because she called “Shotgun”.
This same doctrine is repeated over and over
again wherein Ms. Dasler made false accusations and
sought to repeatedly to eliminate Mr. Dasler’s parent­
ing time. When presented with compelling contrary
evidence, Ms: Dasler then changes her story to try
to continue the campaign of interference with his
parenting time.
If the parties were protected equally under the
law, then Ms. Dasler’s admitted stalking would, be
considered under § 665(9), which includes abuse as
defined 15 V.S.A. § 1101 which includes stalking
referring to 12 V.S.A. § 5131(6). Ms. Dasler wielded
the RFA like a weapon forcing Mr. Dasler to move
where she wanted him to be during visitation even
resulting in a threat of incarceration for Mr. Dasler
getting his inhaler out of the car, causing Ms. Dasler
and her mother to surround his car and come after
him. There’s no excuse for these acts, and they were
sustained for months without reasonable fear of
harm or any rational justification. These acts also
speak directly to the child. The record before the
court is full of examples of this behavior.

App.45a

This type of behavior has continued even after
entry of the final divorce. For example, Ms. Dasler
filed a Motion for Contempt in Oct 2018 presenting
nothing that reasonably supports their accusation.
Rather, it is intended to support a change in counseling
which would deny Mr. Dasler equal access to the
therapist.
The Court has not been willing to enforce the re­
quirement for mediation before filing of a motion.
Instead, the court has awarded Ms. Dasler’s refusal
to participate in mediation by addressing her motions
without mediation.
With respect to Mr. Dasler’s attempt to obtain a
restraining order to prevent Ms. Dasler from continuing
to engage in stalking behaviors, no decision on the
merits has been made by any Court. The VT Court
was not willing to entertain a hearing due to the fact
that Mr. Dasler is a resident of NH. The NH court
dismissed his request due to the fact that litigation
was on-going in VT.
Federal Challenge
Ultimately, this motion is the last option with
the state of VT to get a fair opportunity to be heard
on his 14th Amendment protected parental rights.
This court, and the Vermont Supreme Court may
simply state that Mr. Dasler IS obligated to waive
one of his two rights in VT Family Court and
therefore his testimony and related evidence (which
relied on his testimony) was available at the time of
hearing. If that is the outcome, then Mr. Dasler will
have satisfied the requirement to seek all possible
remedies within the state prior to filing a § 1983 in
Federal Court.

App.46a

Parallel System of Justice
The fundamental question of “fraud upon the
court” and whether or not the fraud has effectively
targeted the machinery is necessarily a sliding scale.
Family Court is a very different animal than other
areas of law in that the court has broad discretion,
and the bar is extremely low to derail the process and
subject the accused to an alternate system of justice.
In this case a single self-serving accusation need
only meet probable cause in an ex-parte hearing to
initiate this alternative system of justice. It takes
very little, and the effect sweeps broadly across the
entire case and the dominos of litigation that follows.
Based upon an accusation, that Mr. Dasler could not
refute without impacting his 5th amendment rights,
the Court made certain factual determinations. The
evidence that Mr. Dasler can now present, including
telephone records and other investigation in connection
with the criminal case, would be able to refute the
baseless allegation. Without being colored by the
claim of “abuse” the Court may have entered vastly
different orders.
Resolution
As illustrated here, the only remedy for this case
is to vacate all family court orders that relied upon
that fraud including the RFA and Final Divorce
Order, and grant a hew hearing wherein Mr. Dasler
can present a defense without being forced to elect
between 5th and 14th Amendment rights. It is the
only remaining remedy within the state to allow Mr.
Dasler a fair healing on his 14th Amendment protected
parental rights, and this relief falls squarely within

App.47a

the provisions under Rule 60 and Fraud Upon the
Court.
Also as illustrated here, the false allegation of
abuse cannot be extracted individually because all
the factors of this case were intertwined and fell like
dominos in Ms. Dasler’s favor, and a new hearing is
warranted.
The fact that Mr. Dasler did not have an oppor­
tunity to present a case and consequently substantial
evidence was excluded tainted the trial irreparably.
There should be no need to adjudicate the matter in
a hearing to recognize that granting the motion is
the only way to resolve the violation of Mr. Dasler’s
Constitutional Rights.
Mr. Dasler wants an opportunity to recover the
costs of litigation resulting from Ms. Dasler’s numerous
false accusations as well.
WHEREFORE, Mr. Dasler respectfully request
that the court;
A)

Grant Mr. Dasler’s Motion to vacate the
orders based upon fraud including the RFA
and Final Divorce Orders or schedule a
hearing on this motion

B)

Schedule a new Final Divorce hearing

. C) , Award Mr. Dasler legal fees incurred as a
result of litigation based upon Ms. Dasler’s
fraud.

App.48a

Respectfully Submitted,

• Timothy Dasler
4/14/20
Prepared with Assistance of NH Counsel

, . t

App.49a

MOTION FOR RELIEF FROM JUDGEMENT
(JANUARY 9, 2020)
STATE OF VERMONT SUPERIOR COURT
ORANGE UNIT FAMILY DIVISION

JENNIFER DASLER,
Plaintiff,
v.
TIMOTHY DASLER,
Defendant.
Docket No. 74-6-17 Oedm
NOW COMES Timothy Dasler, submitting the
following Motion for Relief from Judgements based
upon VT Rule 60 and Fraud Upon the Court.
Summary of Fraud
Mr. Dasler is seeking relief from previous orders
that were based upon fraud perpetrated by Ms.
Dasler and her attorneys. Relief may be granted both
by VT Rule 60 and evidence of Fraud Upon the Court.
The most prevalent issue in Mr. and Ms. Dasler’s
divorce was Ms. Dasler’s accusation of assault, which
led to criminal charges, an RFA order, granting her
temporary custody, restricting Mr. Dasler’s PCC, and
silencing Mr. Dasler on Ms. Dasler’s history of abusing
him. Mr. Dasler plead the 5th and in VT family court

App.50a

hearings on the RFA, Temporary Custody, and Final
Divorce hearings the court proceeded forcing Mr.
Dasler to choose between his 5th and 14th amendment
rights.
Ms. Dasler’s fraudulent claims prevented Mr.
Dasler from presenting his defense in the family
court proceedings and the only recourse available in
VT is relief under Rule 60 and Fraud Upon the Court
upon showing that new evidence illustrates the fraud
upon which prior orders were based.
Now that Mr. Dasler has plead No Contest to
Disturbing the Peace he is free to testify about the
events of 5/12/17 and provide context to evidence
that supports his testimony. Additional evidence has
become available in the investigation of the criminal
accusations with additional evidence recovered from
the marital home after the property distribution.
This new evidence shows numerous fraudulent claims
made by Ms. Dasler.
Mr. Dasler was also unable to present evidence
of Ms. Dasler’s other “bad acts” because it would
require him to testify prior to his criminal charges
being resolved. Ms. Dasler’s other bad acts are
illustrated through testimony and supporting evidence,
and illustrate how Ms. Dasler has been abusive in
similar ways in the past, has sought punitive litigation
in response to criticism, and how Mr. Dasler has
weathered these attacks with patience seeking a
mental health solution rather than trying to control
Ms. Dasler or have her arrested/charged for her crimes.
Ms. Dasler’s attorneys have repeatedly defrauded
the court resulting in findings that are supported
only by the fraudulent claims of Ms. Dasler’s counsel,

App.51a

not any evidence in the case. Ms. Dasler’s counsel’s
willingness to defraud the court also played into the
court’s finding that Ms. Dasler’s filings and refusal of
court ordered visitation were in “good faith”.
The court’s overall assessment of the credibility
of the parties is also shaped by Ms. Dasler’s successful
effort to silence Mr. Dasler on key issues in the case
and contributed to the court’s findings of Ms. Dasler
being primary caregiver and favoring her in the
division of assets.
Having relied more on Ms. Dasler’s version of
events the court focused on Ms. Dasler’s claims that
Mr. Dasler was willfully unemployed and disregarded
Mr. Dasler’s sacrifice of other opportunities in his
field to move to VT, which resulted in Ms. Dasler’s
income nearly tripling while Mr. Dasler’s income has
remained flat and the local area has few opportunities
in his field.
Revealing the depth of Ms. Dasler’s fraud funda­
mentally changes every disputed aspect of this case.
Case Summary
An important underlying issue in this case is the
fact that Ms. Dasler and her parents were traumatized
20+ years ago when Ms. Dasler’s cousins were
kidnapped by their father in the midst of a divorce.
Ms. Dasler and her parents have repeatedly made
the unfounded claim that Mr. Dasler is a “flight risk”
or has attempted to “abduct” the minor child in the
past. The overwhelming panic and desperate attempts
to prevent Mr. Dasler having visits with the child,
the false allegations of abuse, stalking Mr. Dasler
during visitation (lying in wait and following him

App.52a

during court ordered visitation), and the stream of
filings are all rooted' in this fear, which has nothing
to do with Mr. Dasler or his actions, however, it is an .
overwhelming motivator for Ms. Dasler. Her sworn
statements confirm this family history and related
fears.
It is undisputed that Mr. Dasler chose to sleep
on the couch on 5/11/17 avoiding conflict with Ms.
Dasler, and in the morning told her he was leaving.
The testimony of both parties indicate Mr. Dasler
attempted to avoid conflict with Ms. Dasler no less
than 4 times in 24 hours leading up to Ms. Dasler’s
accusations of assault. Conversely, Ms. Dasler pursued
Mr. Dasler and when she found him that evening she
used physical force to exert her will over PCC for
reasons that are entirely disproven based upon new
evidence and supporting testimony.
Within hours of Mr. Dasler telling Ms. Dasler he
was leaving on 5/12/17 she made a fraudulent accu­
sation of abuse to secure custody. Once Ms. Dasler
got Mr. Dasler arrested she filed for an RFA, which
was granted while Mr. Dasler did not testify and
plead the 5th. Ms. Dasler leveraged that RFA to
restrict Mr. Dasler’s contact with the child for 9
months. The bar for Ms. Dasler to silence Mr. Dasler
was only probable cause, and all further proceedings
would force Mr. Dasler to choose between 5th and
14th Amendment rights, effectively preventing him
from defending in the family court cases resulting in
orders based solely on Ms. Dasler’s testimony on
issues of abuse.
Ms. Dasler had the leverage to dictate terms in
the 6/13/17 Mediation Agreement, which allowed Mr.
Dasler only 4 hours/week of visitation but called for

App.53a

“normalizing contact”. Mr. Dasler agreed because the
agreement said “The parties agree and acknowledge
that they do not expect or contemplate that contact
between Timothy and Tenley will continue on the
schedule currently agreed herein, and that they will
work to normalize that contact as this matter or any
related matter progresses.” Unfortunately the Final
Divorce order called this stipulation “voluntary” and
Ms. Dasler’s 8 month campaign to further undermine
contact below the minimum required under this
agreement was considered to be in “good faith” in
spite of the fact that the 170 pages of filings produced
nothing to justify the obstruction. In most cases they
did not seek to prevail on the issues by presenting
any substantial detail or evidence.
Ms. Dasler filed another false allegation on
7/19/17 about 30 days after the 6/13/17 Mediation
Agreement and suspended visitation without a court
order. Details of this fraud will be illustrated below,
but Attorney Levine’s malicious motion to suspend
visitation was in direct response to Mr. Dasler’s rea­
sonable request for makeup visitation required under
the order. Her own emails indicate the direct cause
and effect here, and the claim of an injury that Mr.
Dasler “did not explain” are refuted by Ms. Dasler’s
own testimony. The fraudulent filing was not recog­
nized as Judge Tomasi saw the initial filing and then
passed the case to Judge Harris after rotation of
judges prior to the temporary custody hearing. Judge
Harris did not recognize this and called Ms. Dasler’s
filings in “good faith” in the final divorce order.
While Ms. Dasler accused Mr. Dasler of threat­
ening/abusive messages the court did not find this to
be supported by messages presented in evidence.

App.54a

Instead it found Mr. Dasler was “slightly ginger” in
communicating parenting issues and held that against
him in determining PCC. Ms. Dasler’s fraud
successfully put Mr. Dasler in a double bind where
he must tread lightly as she makes constant accusations
and terms of the RFA, but treading too lightly still
counted against him in the eyes of the court.
Ms. Dasler would file a total of 7 motions totaling
over 170 pages in 9 months seeking to prevent
“normalizing contact” as she had agreed. Meanwhile
Attorney Levine continued to offer 50/50 contact if
Mr. Dasler signed away PRR to Ms. Dasler. The
message is clear, Attorney Levine will continue to
present Ms. Dasler’s false allegations until Mr. Dasler
submits to her demands. The stark contrast between
the 50/50 offer and the filings claiming Mr. Dasler is
a “flight risk”, has threatened Ms. Dasler, and that
visitation is “not safe” and even eliminating Face Time
claiming it was harmful all show that both Attorney
Levine and Ms. Dasler were willfully defrauding the
court.
After the 2/16/18 Temporary PCC hearing the
court ordered contact to be normalized as Ms. Dasler’s
motions failed to show any good cause to prevent it.
Unfortunately, the mere act of obstruction of contact
for 9 months counts every day in her favor regardless
of whether or not it was justified, which is the very
reason they continued the flood of accusations.
After the 2/23/18 Temporary PCC Order for
50/50 contact Ms. Dasler attempted to obstruct the
first overnight visit by falsely accusing Mr. Dasler of
child endangerment (police arrived, but rejected her
claim). Attorney Levine filed a 3/4” thick stack of 3
motions on 2/28/18 seeking to obstruct the new order,

App.55a

and hand wrote her request to have the motions
considered on an Ex Parte basis, a request only sub­
mitted on the court’s copy, not on the copies delivered
to Mr. Dasler’s counsel. These motions were denied
by the court.
Ms. Dasler then fired Attorney Levine and hired
Attorney Loftus. There was a 3-month lull of filings
leading up to the Final Divorce Hearing as new
counsel became familiar with the case and prepared
for the hearing. Ms. Dasler dropped her objection to
50/50 contact, but at the time of hearing Mr. Dasler’s
criminal charges had not been resolved.
Judge Harris ignored Ms. Dasler’s violations of
the visitation orders and called her motions “good
faith”, and that ‘normalizing contact’ was “voluntary”
under the order, thus every day she withheld contact
was to her credit regardless of voracity of her claims
or whether it was in violation of the previous order.
This is further reflection that her fraudulent claim to
be a victim of domestic abuse gave her special status
allowing her to violate court orders with impunity.
The Final Divorce Order relied on 3 factors to
award custody 1. Mr. Dasler was accused of assault
2. Mr. Dasler was “slightly ginger” in communicating
parenting issues (because of the flood of accusations
against him) 3. Ms. Dasler was primary caregiver,
largely because of 9 months of sole custody following
the assault accusation.
How New Evidence Changes the Case
Ms. Dasler’s fraud persuaded the court to accept
Ms. Dasler’s claim to be the victim, however, Mr.

App.56a

Dasler’s testimony and evidence unavailable at time
of hearings indicate:
1.

Ms. Dasler consulted with an attorney before the
alleged assault, then rather than seeking an
RFA or police protection Ms. Dasler sought
confrontation with Mr. Dasler (illustrated by cell
phone data).

2.

Ms. Dasler was on the phone continuously
between the call with the attorney until calling
Mr. Dasler, and. there was only one call to him,
which he answered. Her claim of being unable to
reach Mr. Dasler is provably false (illustrated by
cell phone data).

3.

Ms. Dasler knew Mr. Dasler’s route on the day
of the alleged assault and checked for him at
multiple locations on his route (illustrated by
cell phone location data).

4.

Ms. Dasler went to daycare after speaking with
Mr. Dasler on 5/12/17 and checked on the minor
child, but rather than pick up the child she left
and intercepted Mr. Dasler at the marital home
shortly after. Indicating she was not in fear for
the child or herself, (supported by cell phone
data and testimony)

5.

Ms. Dasler’s reason for engaging physical force to
prevent PCC was also not based upon her later
justifications of a 7PM bedtime or weather. The
historical weather data doesn’t support either
forecast of, or actual rainfall. Numerous photos
and videos withheld by Ms. Dasler after Mr.
Dasler’s arrest now show the child’s bedtime
routine consistently between 8PM—9PM and Ms.
Dasler -well aware of this. Thus, for her to use

App.57a

that excuse to physically body block and restrain
Mr. Dasler is not just untenable, but also
provably false (photo/video evidence and testimony)
6.

Ms. Dasler lied under oath about the 2013 events
involving Ms. Dasler threatening or attempting
to burn her parents’ house down, running Mr.
Dasler down with her car, threatening/attempting
suicide, and whether she went to the hospital
because police gave her the choice between the
hospital or the barracks and forced evaluation
(illustrated by text messages and police report).

7.

Evidence recovered after the exchange of personal
items (following the divorce) outline Ms. Dasler’s
response to being accused of bullying by a co­
worker who quit rather than have Ms. Dasler as
her manager. Ms. Dasler tried to build a sex dis­
crimination suit as direct response to being
reprimanded, which parities Ms. Dasler’s accu­
sation of abuse when Mr. Dasler tried to leave
her. Showing similar bad acts.

8.

Mr. Dasler has additional evidence of Ms.
Dasler’s long history of abusing him. Without
his testimony about the events of alleged assault
these could not be used to illustrate prior bad
acts. Furthermore, the evidence of Ms. Dasler’s
mental health issues and abusive behavior could
only hurt Mr. Dasler’s case while he plead the
5th prior to the resolution of the criminal
charge.

9.

Ms. Dasler’s call to Jim on 5/12/17 shows on the
records as a 10-minute call. Jim has told Mr.
Dasler’s investigator that on that call he did not
hear her say anything about being scared, or

App.58a

about abuse. He only heard her talk about her
concerns about a business loan. Jim’s version of
this call is only further supported by the fact
that when Ms. Dasler ended that call Jim made
no attempt to call police or Mr. or Ms. Dasler,
Mr. Dasler’s testimony and text messages also
indicate the business loan was the root of Ms.
Dasler’s personal attacks that day, although, she
denied a fight about a business loan in her
8/1/17 testimony, (supported by texts and testi­
mony)
10. Mr. Dasler expressed his fears of Ms. Dasler trying
to frame him for a crime as leverage in a divorce
to counteract the mental health concerns. These
text messages support Mr. Dasler’s testimony of
the events of that day, and were also unavailable
without his testimony prior to resolution of the
criminal charge.
With Mr. Dasler’s testimony excluded from the
RFA hearing, Temporary Custody Hearing, and Final
Divorce Hearing, Ms. Dasler’s fraudulent statements
tainted all of these processes targeting the very
machinery of the court by securing temporary custody
and silencing Mr. Dasler about her mental health
issues and acts of abuse.
At the time of separation Mr. Dasler had limited
self-employment and was seeking full time work. He
was unable to pay an attorney to defend himself. He
was granted a public defender, who refused to inves­
tigate aspects of the case that Mr. Dasler felt were
critical to his defense. Mr. Dasler hired a private
attorney after securing full time employment and a
personal loan, but after months that attorney had
also not done the investigation Mr. Dasler felt was

App.59a

critical. Finally in May 2018 he replaced that attor­
ney with Attorney Sussman who did investigate the
accusations, but the evidence was not available by
the time of the June 2018 Final Divorce Hearing.
Attorney Sussman acquired Ms. Dasler’s cell
phone records and location data from 5/12/17, which
refute much of her testimony about the events of that
day. These records in conjunction with Mr. and Ms.
Dasler’s testimony illustrate Ms. Dasler setting up
her accusations in advance of the meeting, stalking
Mr. Dasler and forcing a confrontation in a private
setting of her choosing, and going to daycare just
before Mr. Dasler picked up the minor child, but
choosing to wait until he had the child and force a
conflict afterward.
The afternoon of 5/12/17(prior to accusations of
assault) Ms. Dasler called the attorney who would
sign her RFA paperwork 3 days later. The call was
short, then she called a victim’s advocate that doesn’t
service her area, who apparently referred her to the
victim’s advocate that does service her area. After
speaking with the victim’s advocate she called her
mother and had a lengthy call while driving to
Thetford where the minor child was at daycare. Her
cell phone data indicate she remained in Thetford for
about 15 minutes after calling Mr. Dasler, then her
mother again, then heading to the marital home.
Mr. Dasler’s testimony indicated he was on his
way from Bradford VT to Thetford VT to pick up the
child, he told Ms. Dasler this. He arrived to pick up
the minor child within the 15 minute window that
Ms. Dasler waited at the exit where she could observe
Mr. Dasler coming and going.

App.60a

Ms. Dasler’s testified-that when she called Mr.
Dasler he refused to tell her where he was, then
claimed she had to cry and beg before he told her he
was “at Groton State Park”, and that she could hear
the minor child in the background. The court accepted
this version of events over her earlier affidavit filed
with the RFA claiming she “checked daycare” after
the call with Mr. Dasler. The new cell phone evidence
refutes the version of events accepted by the court.
The phone records are important because they
support Mr. Dasler’s testimony that while he was
initially afraid to say where he was, fearing another
confrontation, he did tell Ms. Dasler his route, which
allowed her to track him to 2 locations before forcing
the confrontation Mr. Dasler was avoiding. Mr. Dasler’s
route:
1st From Bradford to Daycare to pick up
their child (where Ms. Dasler checked for
him then followed him)
2nd To the marital home (where Ms. Dasler
intercepted Mr. Dasler)
3rd To Groton State Park (Mr. Dasler never
arrived because Ms. Dasler had him arrested,
but his phone records show him calling to
arrange a camp site)
The reason the difference is critical to this case
is that the cell phone records indicate Ms. Dasler was
aware of Mr. Dasler’s route and checked for Mr.
Dasler both at daycare and at the marital home. If
Ms. Dasler was genuinely scared she could have
picked up the child well before Mr. Dasler arrived at
daycare, but she checked for the child and left her

App.61a

there in favor of confronting Mr. Dasler in a private
setting.
After picking up the minor child Mr. Dasler
made a stop at the Post Mills gas station, which is
just around a tight bend in the road and a car pulling
off would easily be lost by someone following. While
Mr. Dasler was stopped he saw Ms. Dasler drive
past, which supports the cell data indicating Ms.
Dasler waited near daycare, then followed him. She
apparently lost track of Mr. Dasler when he made
this stop and when she got home she called his friend.
Even after a consultation with both a victim’s
advocate and an attorney Ms. Dasler did not call the
police or any court that could grant her an RFA. The
indication here is that she was looking for more
leverage and everything that she does from this
point is to set up that leverage before Mr. Dasler can
safely escape.
Ms. Dasler claims that she called Mr. Dasler’s
friend Jim to' get help calming him down, however,
Jim discussed the call with Mr. Dasler’s investigator
and says he did not hear anything about Ms. Dasler
being scared. Cell records indicate a 10 minute call to
Jim, and he heard Ms. Dasler talk only about her
concerns about Mr. Dasler starting a business and
his desire for a business loan to get started.
When Mr. Dasler arrived at the marital home
Ms. Dasler ended the call and confronted Mr. Dasler.
If she had genuinely told Jim that she was scared,
then ended the call the minute Mr. Dasler came
home it would be very odd for Jim not to have called
Mr. Dasler, called Ms. Dasler back, or called the police,

jr .

-A9",»

App.62a

however Jim made no effort to reach out after that
call.
Ms. Dasler was questioned about the business
loan in the RFA hearing, but immediately tried to
shut down that argument claiming there was no
argument about the business loan. Mr. Dasler’s private
texts sent to a friend prior to the arrival of police also
confirm that the argument was about Ms. Dasler’s
concerns about a business loan, which only further
support Jim’s account of events and refutes Jen’s tes­
timony.
Without Mr. Dasler’s testimony the events around
the alleged assault could not be fairly adjudicated, and
related evidence was of no value without his testimony,
thus was unavailable at the time of hearing.
Mr. Dasler will swear under oath that when he
arrived to the marital home on 5/12/17 Ms. Dasler
was on the phone, then ended the call as he exited
the vehicle. She confronted him, told him he should
have left earlier in the day, and he could no longer
take their daughter because she would be getting to
bed late. Ms. Dasler then physically took the child
and body blocked Mr. Dasler and physically pushed
him repeatedly to prevent previously agreed upon
contact. Ms. Dasler admits to body blocking and to
putting her hands on him initiating physical contact
to prevent PCC previously agreed upon and apply
unwanted and unjustified restraint.
Photos and videos he was later able to recover
from electronic devices support that the child’s bedtime
was not 7PM'-as Ms. Dasler claims, but many photos
and videos show a normal bedtime of 8-9PM, which
Ms. Dasler is well aware of. Never was the child in

App.63a

pajamas or approaching a 7PM bedtime contemporary
to the 5/12/17 event. The relevance here is that Ms.
Dasler knows the confrontation wasn’t about the
time of day or the weather as she later claimed (neither
forecast, nor historical weather data show rain). Ms.
Dasler was confronting Mr. Dasler for the sole purpose
of securing leverage by force a conflict, which she
would later lie about to gain advantage in court. She
leveraged visitation in the same manner to fuel hun­
dreds of pages of accusations dismissed by the court.
Ms. Dasler pointed to the Safe Line call as
though it was evidence that she was scared, but the
stalking behavior and pattern of the day indicate
that it was just a component of a plan in which she
could start a confrontation, then no matter what
occurred she could retroactively point to that call as
though it were evidence. Mr. Dasler need not cause
any harm in this plan, just either remain silent or
admit to holding her back as she attacked him.
Either way she can rely on that call to give the
appearance that she was scared, and lie about the
rest. However, now the depth of deception is illustrated
by clear and convincing evidence.
Mr. Dasler will testify that after Ms. Dasler took
the child down to the park he went to the park in
hopes of still taking the child camping. Ms. Dasler
was increasingly verbally and physically aggressive.
She pushed and hit Mr. Dasler, and at one point as
he tried to engage playfully with their child while
keeling down Ms. Dasler struck Mr. Dasler with her
knee pushing him back and he caught himself on his
hands as he fell back nearly prone to the ground.
Mr Dasler continued to try and reason with Ms.
Dasler telling her that he needs a supportive partner

App.64a

during his transition in employment and Ms. Dasler
screamed repeatedly “YOU CHOSE THIS!!!” Then
she put the minor child in a child swing and turned
on Mr. Dasler screaming “I’LL KILL YOU BEFORE I
LET YOU TAKE HER!!!” and approached him rapidly
swinging towards his testicles. Mr. Dasler’s hands
were up in a defensive position because Ms. Dasler’s
long history of physical abuse of Mr. Dasler prepares
him for attacks in the upper torso and face with
hitting, slapping, pushing, and spitting. All her attacks
earlier this day had also been in the chest and
shoulder area. With his hands up Mr. Dasler could
not reach to block Ms. Dasler’s low, upward swing for
his testicles, but braced against Ms. Dasler’s deltoids
(the large muscle in the shoulder above the bicep).
Ms. Dasler continued to try an push towards Mr.
Dasler, and he could not control her arms, only keep
her away as his arms were longer.
Mr. Dasler used his training as a wrestler seeking
to stop her forward momentum by forcing her to
change her footing. This allowed him to reduce the
force she exerted against him rather than increasing
force against her. He moved her sideways a few inches
just until she lifted one foot, which stops her forward
advance. When her toe touched the ground again she
was not in danger of falling, but still could not advance
for a split second, so Mr. Dasler used that moment to
break away and put distance between them.
Mr. Dasler used the absolute minimum force
possible to prevent Ms. Dasler from seriously injuring
him, caused no injury, and took the first opportunity
to leave and call the police. No evidence has been
provided that indicate any injury in the area where
Mr. Dasler made contact with Ms. Dasler. She has

*\.
•«

-i.

App.65a

never provided any photographic evidence to support
her claim of a developing bruise, however, there is
significant parity in her 7/19/17 motion claiming a black
eye. This claim is thoroughly debunked by evidence
Mr. Dasler presented at the Temporary Custody
Hearing indicating she fabricated the “black eye” when
she filed 2 weeks later because Mr. Dasler’s photos
from 4 days after the child’s slip and fall show no evi­
dence of injury at all. In conglomerate, the evidence is
clear that Ms. Dasler has repeatedly sought to defraud
the court and each incident taken individually is
ignored by the court. The “black eye” accusation was
made late enough that nobody could evaluate any
injury. Daycare, a mandatory reporter, has no record
of any such bruise or black eye. There is no doctor’s
report. Only a photo taken immediately after the
child fell in which Ms. Dasler attempts to present a
shadow over the eye as though it is a bruise minutes
after the child fell. Had Mr. Dasler not had photos of
his visitation the following week and a recording of
the exchange Ms. Dasler may well have prevailed in
another false allegation seeking to eliminate PCC.
The further evidence of Ms. Dasler’s prior bad
acts also illustrate why Mr. Dasler had to take great
care and why he was accustomed to dealing with her
mental health crises with compassion and care much
like addressing a child having a tantrum. This routine
is familiar to Mr. Dasler as’ indicated by the police
report and text messages of the 20i3 incident where
Ms. Dasler threatened to burn her parents’ house
down, then ran Mr. Dasler down with her car in a
suicidal episode.
The police report and text messages indicate Mr.
Dasler taking an incident in which both their lives

App.66a

were threatened, and seeking medical care for her
rather than physically restraining her or asking to
have her arrested for running him down. The parity
with this particular incident is not to be overlooked
as Ms. Dasler also later testified that every aspect of
the incident where she or her parents would be at
fault was either “fiction” or Mr. Dasler’s fault.
Mr. Dasler’s texts for help during the 2013 event
indicate that after she ran him down he remained on
her hood for 20 minutes attempting to talk her down,
remaining in harm’s way as she threatened harm to
both of them. Even so, he did not seek to have her
punished, only treated for her mental health issue.
Mr. Dasler’s texts to a friend on 5/12/17 indicate
she was aggressive, cite the “YOU CHOSE THIS!”
language from Ms. Dasler, her aggression, the prev­
alence of the business loan argument (denied in Ms.
Dasler’s testimony), and the fact that he was afraid
Ms. Dasler was simply looking for leverage in a custody
dispute because of her past mental health issues.
Because of Ms. Dasler’s assault accusation Mr.
Dasler’s evidence of her past mental health issues
and acts of abuse could not be used as other “bad
acts” without waiving his 5th amendment right. The
only time Ms. Dasler’s mental health was addressed
in court was when Attorney Loftus grilled Mr. Dasler
on why he sent her an email about her mental health
issues. Mr. Dasler testified briefly about some of the
incidents including Ms. Dasler running him down
with her car after she fought with her parents and
became suicidal.
Being unprepared to present this in the family
case Mr. Dasler did not have the police report on

App.67a

hand, and was unable to obtain it until after the
Final Divorce Hearing. Ms. Dasler testified to Mr.
Dasler’s claims being “fiction”, claimed she never
threatened to burn her parents’ house down, claimed
Mr. Dasler forced her to go to the hospital, not the
police, that her parents had not lied about her mother
having a heart attack, she hadn’t threatened suicide,
and that she was going to see her mom at the hospi­
tal when Mr. Dasler blocked her car. She insinuated
that Mr. Dasler’s emotion when testifying was staged
as he has only ever been that emotional after the
death of his mother.
The police report refutes almost every statement
Ms. Dasler made about the 2013 event. It shows that
police responded to a call of a suicidal female and the
husband on the hood as she was threatening suicide.
Without Mr. Dasler present, Ms. Dasler told police
that she was considering suicide by driving into a
tree because of the fight with her parents. She told
police her father refused to tell her where the hospital
was, she thought her mother had a heart attack, and
it was her fault which led her to be suicidal. She told
them she had been, fighting with her parents for
days, and a friend was trying to find out her mother’s
condition. Police gave her the option of either going
to the hospital in the ambulance or to the barracks to
be evaluated. Ms. Dasler only agreed to go in the
ambulance after Mr. Dasler came in having received
a message that Ms. Dasler’s mother had only had an
anxiety attack and would be released from the hospital
that day.
The impact on this case is significant. While the
court credited Mr. Dasler’s version of events about
the 2013 incident it is clear from the police report

App.GBa

that Ms. Dasler either is delusional about events and
blames Mr. Dasler for all the issues for which she
and her parents are at fault in this scenario or Ms.
Dasler willfully lied to the court. In either case it is
clear that there is a major mental health concern
that is central to the issues of Ms. Dasler and her
parents’ flood of unfounded accusations against Mr.
Dasler and Ms. Dasler’s attempt to use PCC to abuse
Mr. Dasler and the minor child.
Mr. Dasler’s texts from the events surrounding
this suicide threat indicate how he tried (along with
a friend that was with Ms. Dasler’s parents) to
moderate the damage and show an ongoing concern
of suicidal actions over the span of days. The fight
that landed both Ms. Dasler and her mother in the
hospital stems entirely from Ms. Dasler being upset
that her parents didn’t want to attend her cousin’s
30th birthday party in Boston.
If Mr. Dasler tried to present Ms. Dasler’s mental
health issues and her past abusive acts without
waiving his 5th amendment right to remain silent
prior to his trial on the assault charges it would more
likely have damaged his case, and couldn’t illustrate
prior bad acts without his version of events on
5/12/17. Mr. Dasler’s texts to a friend on 5/12/17 indi­
cate this concern prior to police ever arriving on the
scene.
Ms. Dasler stipulated in the 6/13/17 Mediation
Agreement that Mr. Dasler must get an Anger
Management Screening, but counsel had an ongoing
discussion about a Family Evaluation so Mr. Dasler
was not “evaluated in a vacuum”. Both Attorney
Levine and Attorney Loftus tried to present this as
Mr. Dasler refusing the screening rather than offering

App.69a

greater scrutiny, and when Mr. Dasler’s former attor­
ney, Attorney Dux, was called as a witness in the
Final Divorce hearing a year later (while Mr. Dasler
was represented by Attorney Steadman) she clarified
that there was no effort to avoid a screening on Mr.
Dasler’s part. More importantly, though, it shows
Mr. Dasler offering greater scrutiny, which could have
damaged him in a criminal case if he had anything to
fear. Conversely, Ms. Dasler refused to take part in
any Family Evaluation.
Ms. Dasler further refused to allow the minor
child’s therapist Ms. Washburn to communicate directly
with her therapist while Mr. Dasler signed releases
so his therapist could work directly with the child’s
therapist. Ms. Dasler has refused Ms. Washburn’s
attempts to get both parents in a meeting with their
own personal therapists and Ms. Washburn to work
through the families issues.
Ms. Dasler’s financial records also indicate that
she has paid her therapist from sources other than
the credit and checking accounts made available in
discovery. All other medical payments are made from
these accounts, but it appears that Ms. Dasler had
been hiding the identity of her mental health providers
since long before separation. Another indication that
she has been masking her mental health issues.
There are many other acts of abuse, which Mr.
Dasler would present as prior bad acts that shape
the way he made decisions on the day of 5/12/17, but
again without his testimony it was of no use in the
hearings that followed. Incidents include Ms. Dasler
regularly physically and verbally attacking Mr. Dasler.
The nature of the attacks which shape how he would
try and protect himself. Previous false allegations

App.70a

documented in email. Ms. Dasler using contact with
their child as a weapon to force compliance over
issues unrelated to fears of abuse (documented in
texts/emails). Ms. Dasler being accused of bullying at
work and responding by seeking legal action based
upon sexual discrimination and harassment claims.
This is illustrated in text messages, Jen’s hand­
written notes (received by Mr. Dasler in one of his
work journals from the marital home after Final
Divorce), and documentation of Ms. Dasler’s contact
with attorneys about a month after being accused of
bullying.
On the whole, Ms. Dasler’s numerous false repre­
sentations left Mr. Dasler unable to effectively present
a case in defense of the allegations without choosing
between 14th amendment right affirmed by the
SCOTUS in Troxell v. Granville to include parental
rights, or his 5th Amendment Right related to the
assault allegation presented in both the family and
criminal cases.
Ms. Dasler’s false statements were heavily relied
upon by the court, and significantly impacted the
court’s weighing of credibility in choosing to side
with her on other claims that Mr. Dasler wasn’t
working enough or providing enough care for the
child. As a man accused of assault, and unable to
speak on the issue, a case that appears to be “I didn’t
do it, my wife is just crazy” or illustrating her history
of mental health issues and violence simply damage
the case without the evidence unavailable at the
time of the hearing. Rather than ‘prior bad acts’,
without Mr. Dasler’s testimony these would simply
appear to the court as an attack on a ‘victim’.

-vV-.’"

App.71a

The court also relied on Attorney Levine, as an
officer of the' court, who falsely claimed in one of
three 2/28/18 motions that Mr. Dasler testified that
he recorded Ms. Dasler after being ordered not to.
This claim is not supported by the record, however,
the court’s findings state that it occurred simply be­
cause Attorney Levine falsely claimed it to be true.
Attorney Levine also falsely represented in the
7/19/17 motion (without signed affidavit) the child
was returned from a visit with bruises and scratches
that Mr. Dasler “did not explain” and used that as
the basis to suspend visitation without a court order.
2 weeks later at the RFA Hearing Mr. Dasler remained
silent pending his trial, and Ms. Dasler’s testimony
deviated significantly from the claims of the 7/19/17
motion after learning that Mr. Dasler had a recording
of that child exchange.
Ms. Dasler has not heard that recording, but tes­
tified that Mr. Dasler told her the child slipped and
fell in the bubble exhibit because he found the child’s
provided footwear to be inadequate (water shoes are
all that was provided). It is clear that Ms. Dasler
knew that the injury was explained, the photos don’t
support her claim of a “bruise” or “black eye”. Mr.
Dasler’s recording also proves that Ms. Dasler’s claim
the he did not answer her questions is unequivocally
false. The only question she asked was “did you
change Her diaper” and every piece of information he
gave about the slip And fall was volunteered by him
without prompting.
Even if Ms. Dasler lied to Attorney Levine prior
to the 7/19/17 filing it is clear that Attorney Levine
knew by the hearing 2 weeks later that the claim
was false but she did not seek to correct it with the

App.72a

court. Furthermore, the entire nature of that filing is
clearly punitive as Attorney Levine’s email presented
in the Temporary Custody hearing shows she filed
that motion directly in response to Mr. Dasler asking
for makeup visitation as were most of the motions
targeting PCC. Most of these motions fall within 2
business days of Mr. Dasler asking for makeup time.
By the time of the 2/16/18 Temporary PCC
Hearing Ms. Dasler had refused every form of contact
ordered after the Mediation Agreement. She admits
to cancelling 8 of 70 visits without makeup time, she
suspended all FaceTime contact, and rather than
working to “normalize contact” she continued to work
to undermine contact for 8 months. The 8/17/18 Final
Order cites Ms. Dasler’s exhibit 8 claiming she made
“reasonable makeup time”, which is an error. There
are 8 cancelled visits and 7 visits that were moved.
The 7 moved visit are not makeup time for the 8
cancelled visits and the exhibit makes that clear.
This error combined with the court stating “normal­
izing contact” was-“voluntary” and ignoring the
refusal of FaceTime contact, the court whitewashes 8
months of repeated violations. It seems clear that the
court is crediting Ms. Dasler as a genuine victim of
domestic abuse and giving her the benefit of the
doubt, allowing her to break these orders, however,
the new evidence should substantially change that
calculus illustrating instead a mother who is mentally
unstable and will make false allegations at part of an
extortion campaign to prevent Mr. Dasler from
defending himself.
Ms. Dasler secretly recorded a FaceTime conver­
sation on 5/30/17 prior to the 6/13/17 Mediation Agree­
ment and subsequent court order. She then used the

App.73a
5/30/17 recording in her 7/19/17 Motion to Suspend
Visitation. In the 8/1/17 hearing Ms. Dasler claimed,
among other things, that Mr. Dasler’s calm tone in
the recording was an implicit threat. This should not
be any part of the basis to justify suspending visitation
on 7/19/17 and again Attorney Levine is well aware
of this. It further indicates that Ms. Dasler entered
into the 6/13/17 agreement with the full intention of
undermining that very agreement if Mr. Dasler did
not sign away his parental rights as she demanded.
She can offer visitation, but force him to see her to
make exchanges. In doing so she can make more
accusations to extend the extortion campaign.
Every significant aspect of the 7/19/17 Motion to
Suspend Visitation accusations can be disproven, but
in the subsequent 8/1/17 RFA hearing Mr. Dasler
could not testify without waiving his 5th Amendment
right, so the court didn’t hear his recorded evidence
(requiring him to authenticate) and it continued to
give Ms. Dasler the benefit of the doubt even as the
most significant aspects of the allegations were dis­
proven. She never sought to prevail by presenting
any evidence of the' allegedly insulting, harassing,
humiliating, or threatening communications from Mr.
Dasler, although her counsel submitted into evidence
more than 60 pages of emails/texts from Mr. Dasler
over the course of litigation. None were provided from
this period between the 6/13/17 Mediation Agreement
and 7/19/17 Motion to Suspend Visitation, or other
filings through 2/28/18 with similar claims of threat­
ening or abusive communication.
The 7/19/17 Motion states "Ms. Dasler does not
believe it is safe for either her or the minor child to
continue to have contact under the circumstances”

v'

App.74a

but fails to establish any reasonable basis for this.
By the time of the hearing 2 weeks later Ms. Dasler
was aware that Mr. Dasler had recordings of child
exchanges, which she previously was not aware of.
Mr. Dasler’s recordings can absolutely disprove any
danger in these exchanges. Although Ms. Dasler had
presented a secret recording to the Tomasi court in
the 8/1/17 hearing she began complaining to the
Harris court 4 months later (after judges rotated)
that Mr. Dasler was recording exchanges. The court
ordered Mr. Dasler to stop recording exchanges and
held it against him in the final order.
Mr. Dasler’s recording is the only thing that
prevented Ms. Dasler from prevailing with her lie
about the child’s “black eye” in the attempt to suspend
contact and get the child on an RFA. After this, Ms.
Dasler’s accusations became so vague it was impossible
to provide a recording to disprove a single instance
because no dates or specifics were provided. On
11/11/17, however, Ms. Dasler saw Mr. Dasler out
shopping and attempted a very specific accusation of
“stalking”, which she presented to officers in both
Hartford, VT and Lebanon, NH. Because Mr. Dasler
does not feel safe anywhere so long as Ms. Dasler
continues to attempt to frame him for crimes (and
her parents often corroborate the lies) he collected
evidence even as he was out shopping. Presumably
Ms. Dasler thought Mr. Dasler would be vulnerable
and not have recordings or evidence of him running
errands, and only protected himself during child
exchanges because by this time she had stopped
making detailed, specific accusations about exchanges.
When Officer Dourado investigated Ms. Dasler’s
accusation on 11/11/17 Mr. Dasler had evidence to

App.75a

disprove it and provided Officer Dourado with enough
information for him to close the case without charges.
He subsequently contacted Ms. Dasler after investigat­
ing. Although Ms. Dasler continued to immediately
file panicky motions about things as trivial as Mr.
Dasler allegedly walking down the stairs without
holding the minor child’s hand, she did not file a motion
mentioning the stalking accusation until a month
after, and it was only a foot note in the motion. Her
affidavit also omitted the most serious aspects of her
accusations, which seems to be an indication that she
learned from the officer that the accusation could be
disproven. The difference between Ms. Dasler’s state­
ment in an affidavit (l month later) and the 2 police
reports about the incident are notable.
The 2/28/18 Motions include the police reports from
both Hartford, VT and Lebanon, NH and both reports
mention Mr. Dasler allegedly going to Walgreens
(across the street from the Kohls where Ms. Dasler
was shopping). Her initial accusation to Officer
Dourado claimed Mr. Dasler waited at Walgreens,
then followed her on the interstate. Although both
reports mention Walgreens, this is notably absent
from Ms. Dasler’s affidavit, which seems to be an
indication that she now knows Mr. Dasler has evi­
dence to disprove her accusations and instead relies
on the reports of the officers to make these false
claims rather than sign an affidavit and be disproven
in court.
The upshot of all of this is that every significant
accusation where Ms. Dasler provided any detail
since 5/12/17 was disproven, yet she continued to get
the benefit of the doubt while the court penalized Mr.
Dasler for simply recording out of self-defense. Her

•ft. ■

’ **

c

App.76a

accusations fall into two basic categories, those where
she provided detail and was subsequently disproven
and those where she was so vague that no defense is
really possible, such as claiming that at some point
on an undetermined date something “threatening/
abusive” was said without indicating what was actually
said.
Attorney Levine also continued to offer 50/50
contact to Mr. Dasler’s counsel at the time throughout
her involvement in the case. So her 7 motions seeking
to interfere with Mr. Dasler’s PCC (170 pages of
filings) all occurred while she offered 50/50 PCC if
Mr. Dasler signed away his PRR. She knew, as did
Ms. Dasler, throughout the process that Mr. Dasler
was not “abusive”, or a “flight risk”, and that visitation
was not “dangerous” to the child or Ms. Dasler. It was
simply extortion and a fraud that targets the very
machinery of the court.
WHEREFORE: Mr. Dasler requests that the court:
A)

Schedule a hearing on Relief from Judgement
and Fraud Upon the Court

B)

Provide relief from orders based upon the
fraud of Ms. Dasler and her attorneys.

C)

Require Ms. Dasler to pay Mr. Dasler’s
attorney fees for the current filing and Mr.
Dasler’s defense against her campaign of
false allegations over the last 2 years.
Respectfully Submitted
Isl Timothy Dasler
1/19/20

